<html>
<title> - Tibet</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                 TIBET

=======================================================================

                               EXCERPTED

                                from the

                           2011 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2011

                               __________

 Printed for the use of the Congressional-Executive Commission on China




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




         Available via the World Wide Web: http://www.cecc.gov


                  U.S. GOVERNMENT PRINTING OFFICE
70-935 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     JEFF MERKLEY, Oregon
                                     SUSAN COLLINS, Maine
                                     JAMES RISCH, Idaho

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)






 
                                 Tibet

                                Findings

        <bullet> Expanding Chinese government and Communist 
        Party use of legal and policy measures to increase 
        pressure on Tibetan culture--especially on religion and 
        language--are resulting in consequences that Tibetans 
        believe threaten the viability of their culture. 
        Declining well-being of Tibetan culture contrasts with 
        increases in government-provided statistical measures 
        on economic development and social services, such as 
        education. Tibetans who peacefully express disapproval 
        of government and Party policy on Tibetan affairs are 
        at increased risk of punishment as the central and 
        local governments expand the use of legal measures to 
        safeguard ``social stability'' by criminalizing such 
        expression.
        <bullet> No formal dialogue took place between the 
        Dalai Lama's representatives and Chinese government and 
        Party officials during the Commission's 2011 reporting 
        year. The environment for dialogue deteriorated as the 
        government pressed forward with implementation of legal 
        measures and policies that many Tibetans--including the 
        Dalai Lama--believe threaten the Tibetan culture, 
        language, religion, heritage, and environment. In 2011, 
        the Dalai Lama took steps to end the official role of a 
        Dalai Lama in the India-based organization that is 
        commonly referred to as the Tibetan government-in-
        exile. The change has the potential to alter dialogue 
        dynamics by eliminating the basis for the Party and 
        government to characterize the Dalai Lama as a 
        ``political'' figure.
        <bullet> The government and Party continued the 
        campaign to discredit the Dalai Lama as a religious 
        leader and expanded government and Party control over 
        Tibetan Buddhism to impose what officials describe as 
        the ``normal order'' of the religion. As of August 
        2011, the central government and 9 of 10 Tibetan 
        autonomous prefectural governments issued or drafted 
        regulatory measures that increase substantially state 
        infringement of freedom of religion in Tibetan Buddhist 
        monasteries and nunneries. The measures impose closer 
        monitoring and supervision of each monastery's 
        Democratic Management Committee--a monastic group 
        legally obligated to ensure that monks, nuns, and 
        teachers obey government laws, regulations, and 
        policies. The measures expand significantly township-
        level government authority over monasteries and 
        nunneries and provide a monitoring, supervisory, and 
        reporting role to village-level committees.
        <bullet> Government security and judicial officials 
        used China's legal system as a means to detain and 
        imprison Tibetan writers, artists, intellectuals, and 
        cultural advocates who turned to veiled language to 
        lament the status of Tibetan culture or criticize 
        government policies toward the Tibetan people and 
        culture. Examples during the 2011 reporting year 
        included writer-publishers, a conference organizer, a 
        singer, and persons who downloaded ``prohibited'' 
        songs. The government seeks to prevent such Tibetans 
        from influencing other Tibetans by punishing peaceful 
        expression as a ``crime'' and using imprisonment to 
        remove them from society.
        <bullet> Events this past year highlighted the 
        importance Tibetans attribute to the status and 
        preservation of the Tibetan language and the increased 
        threat that some Tibetans believe will result from 
        ``reform'' of the ``bilingual education'' system. 
        Tibetan students in one province led protests against 
        plans to reduce the status and level of use of Tibetan 
        language during the period 2010 to 2020. A Party 
        official characterized ``unity of spoken and written 
        language'' as essential for ``a unified country'' and 
        implied that protesting students put national unity at 
        risk. Retired Tibetan educators submitted to 
        authorities a petition analyzing what they deemed to be 
        violations of China's Constitution and Regional Ethnic 
        Autonomy Law that result in the infringement of ethnic 
        minorities' rights.
        <bullet> Rural Tibetans protested against what they 
        consider to be adverse effects of government and Party 
        economic development policies--especially mining--that 
        prioritize government objectives above respecting or 
        protecting the Tibetan culture and environment. The 
        value of Tibet Autonomous Region (TAR) mineral 
        resources is approximately double the 2001 to 2010 
        subsidies the central government provided to the TAR, 
        based on official reports. The TAR government has 
        completed the compulsory settlement or resettlement of 
        nearly two-thirds of the TAR rural population. 
        Officials provided updates on construction of the 
        railway network that will crisscross the Tibetan 
        plateau: one link will traverse quake-struck Yushu, 
        which the government renamed and will make into a 
        ``city'' with a substantial population, economy, and 
        well-developed infrastructure. Tibetans in Yushu 
        protested after authorities either sold or expropriated 
        their property without providing adequate compensation.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Urge the Chinese government to engage in 
        substantive dialogue with the Dalai Lama or his 
        representatives on protecting the Tibetan culture, 
        language, religion, and heritage within the Tibet 
        Autonomous Region (TAR) and the Tibetan autonomous 
        prefectures and counties in Qinghai, Gansu, Sichuan, 
        and Yunnan provinces. The Dalai Lama's withdrawal from 
        exiled Tibetan administrative affairs has the potential 
        to alter dialogue dynamics by eliminating the basis for 
        the government and Party to characterize him as a 
        ``political'' figure. As tensions rise in Tibetan 
        areas, a Chinese government decision to engage in 
        dialogue can result in a durable and mutually 
        beneficial outcome for the Chinese government and 
        Tibetans and improve the outlook for local and regional 
        security in coming decades.
        <all> Convey to the Chinese government the urgent 
        importance of refraining from expanding the use of 
        legal measures to infringe upon and repress Tibetan 
        Buddhists' right to the freedom of religion. Point out 
        to Chinese officials that the anti-Dalai Lama campaign, 
        aggressive programs of ``patriotic education,'' and 
        recent prefectural-level legal measures seeking to 
        control Tibetan Buddhist monastic affairs could promote 
        social discord, not ``social stability.'' Urge the 
        government to respect the right of Tibetan Buddhists to 
        identify and educate religious teachers in a manner 
        consistent with Tibetan preferences and traditions.
        <all> Request that the Chinese government follow up on 
        a 2010 statement by the Chairman of the TAR government 
        that Gedun Choekyi Nyima, the Panchen Lama whom the 
        Dalai Lama recognized in 1995, is living in the TAR as 
        an ``ordinary citizen'' along with his family. Urge the 
        government to invite a representative of an 
        international organization to meet with Gedun Choekyi 
        Nyima so that Gedun Choekyi Nyima can express to the 
        representative his wishes with respect to privacy; 
        photograph the international representative and Gedun 
        Choekyi Nyima together; and publish Gedun Choekyi 
        Nyima's statement and the photograph.
        <all> Convey to the Chinese government the importance 
        of respecting and protecting the Tibetan culture and 
        language. Urge Chinese officials to promote a vibrant 
        Tibetan culture by honoring China's Constitution's 
        reference to the freedoms of speech, association, 
        assembly, and religion, and refraining from using the 
        security establishment, courts, and law to infringe 
        upon and repress Tibetans' exercise of such rights. 
        Urge officials to respect Tibetan wishes to maintain 
        the role of both the Tibetan and Chinese languages in 
        teaching modern subjects and not to consign Tibetan 
        language to inferior status by discontinuing its use in 
        teaching modern subjects.
        <all> Encourage the Chinese government to take fully 
        into account the views and preferences of Tibetans when 
        the government plans infrastructure, natural resource 
        development, and resettlement projects in the Tibetan 
        areas of China. Encourage the Chinese government to 
        engage appropriate experts in assessing the impact of 
        such projects and in advising the government on the 
        implementation and progress of such projects. Request 
        the Chinese government to compensate fully, fairly, and 
        promptly all Tibetans who suffer the loss of property 
        or property rights as a result of the April 2010 Yushu 
        earthquake and the government's decision to redevelop 
        Yushu as a new ``city.''
        <all> Increase support for U.S. non-governmental 
        organizations to develop programs that can assist 
        Tibetans to increase their capacity to peacefully 
        protect and develop their culture, language, and 
        heritage; that can help to improve education, economic, 
        health, and environmental conservation conditions of 
        ethnic Tibetans living in Tibetan areas of China; and 
        that create sustainable benefits for Tibetans without 
        encouraging an influx of non-Tibetans into these areas.
        <all> Continue to convey to the Chinese government the 
        importance of distinguishing between peaceful Tibetan 
        protesters and rioters; condemn the use of security 
        campaigns to suppress human rights; and request the 
        Chinese government to provide complete details about 
        Tibetans detained, charged, or sentenced for protest-
        related crimes. Continue to raise in meetings and 
        correspondence with Chinese officials the cases of 
        Tibetans who are imprisoned as punishment for the 
        peaceful exercise of human rights. Representative 
        examples include: Former Tibetan monk Jigme Gyatso (now 
        serving an extended 18-year sentence for printing 
        leaflets, distributing posters, and later shouting pro-
        Dalai Lama slogans in prison); monk Choeying Khedrub 
        (sentenced to life imprisonment for printing leaflets); 
        Bangri Chogtrul (regarded by Tibetan Buddhists as a 
        reincarnated lama, serving a sentence of 18 years 
        commuted from life imprisonment for ``inciting 
        splittism''); and nomad Ronggyal Adrag (sentenced to 8 
        years' imprisonment for shouting political slogans at a 
        public festival).

                              Introduction

    Developments during the Commission's 2011 reporting period 
show that expanding Chinese government and Communist Party use 
of legal and policy measures to increase pressure on Tibetan 
culture--especially religion and language--are resulting in 
consequences that Tibetans believe threaten the viability of 
their culture. Declining well-being of Tibetan culture 
contrasts with increases in economic development and social 
services such as education in government-provided statistics. 
Tibetans who peacefully express disapproval of Chinese 
government policy on Tibetan affairs are at increased risk of 
punishment as governments expand the use of legal measures to 
safeguard ``social stability'' by criminalizing such 
expression.

  Status of Negotiations Between the Chinese Government and the Dalai 
                      Lama or His Representatives

    No formal dialogue took place between the Dalai Lama's 
representatives and Chinese government and Communist Party 
officials during the Commission's 2011 reporting year. The 
environment for dialogue deteriorated as the Chinese government 
pressed forward with implementation of legal measures and 
policies that many Tibetans--including the Dalai Lama--believe 
threaten the Tibetan culture, language, religion, heritage, and 
environment. In his March 10 address to Tibetans,\1\ the Dalai 
Lama expressed disappointment with previous rounds of the 
dialogue. He noted the ``lack of any positive response'' to 
proposals set out in his Middle Way Approach \2\ and suggested 
that the Communist Party United Front Work Department officials 
who met with the Dalai Lama's envoys may not have accurately or 
completely informed higher ranking officials about the Tibetan 
proposals.\3\
    In March 2011, the Dalai Lama took steps to end the 
official role of a Dalai Lama in the India-based organization 
that is commonly referred to as the Tibetan government-in-
exile.\4\ The change, he said, would enable him to focus ``more 
effectively'' on spiritual matters.\5\ He explained in his 
March 10 address that he had reached a ``decision to devolve 
[his] formal authority to the elected leader'' \6\ and the next 
day outlined his decision to end the centuries old Tibetan 
government structure that positioned the Dalai Lama as the 
highest-ranking figure in both government and religious 
affairs.\7\ The Dalai Lama's renunciation of an official role 
in exiled Tibetans' governance has the potential to alter the 
dialogue's dynamics by eliminating an institutional basis for 
the Party and government to characterize the Dalai Lama as a 
``political'' figure.\8\
    In July 2011, Under Secretary of State for Democracy and 
Global Affairs Maria Otero reiterated U.S. Administration 
objectives to ``promote a substantive, results-oriented 
dialogue between the Chinese Government and the Dalai Lama or 
his representatives'' and ``to help sustain Tibet's unique 
religious, linguistic, and cultural heritages.'' \9\ She 
observed that it is in the Chinese government's interests to 
resolve problems and that counterproductive policies ``will 
exacerbate already existing tensions that could, in turn, 
undermine China's efforts to maintain its current social and 
economic development.'' \10\

                Religious Freedom for Tibetan Buddhists

    During the past year, the Chinese government and Communist 
Party continued the campaign to discredit the Dalai Lama as a 
religious leader \11\ and expanded government and Party control 
over Tibetan Buddhism in order to impose what officials 
describe as the ``normal order'' of the religion.\12\ In April 
2011, Zhu Weiqun, Executive Deputy Head of the Party's United 
Front Work Department \13\ (and principal interlocutor for the 
Dalai Lama's envoys) summed up Party intentions toward the 
Tibetan Buddhist religion, monasteries, and nunneries during a 
working group ``investigation'' he led in the Tibet Autonomous 
Region (TAR).\14\ A Party-run newspaper described his remarks:

        He expressed his hopes that religious personages and 
        believers will always implement the line, principle, 
        and policies of the Party, unswervingly carry out 
        struggle against the Dalai clique, expose the 
        reactionary essence of Dalai, establish a sound and 
        permanent mechanism for the management of monasteries, 
        and ensure that all activities of monasteries will have 
        rules to follow. In addition, their interpretations of 
        religious doctrines and rules must be [in] line with 
        social development and progress and ensure that Tibetan 
        Buddhism will actively adapt itself to socialist 
        society.\15\


  officials press attack on dalai lama, set sights on selecting next 
                               dalai lama


    Chinese government and Communist Party officials pressed 
their campaign to discredit the Dalai Lama as a religious 
leader. Zhang Qingli, Secretary of the TAR Party Committee, at 
a March 2011 meeting of TAR delegates to the National People's 
Congress, accused the Dalai Lama of being ``the boss of 
splittism'' and a ``double dealer'' who, ``under the signboard 
of religion,'' seeks to ``deceive religious believers' simple 
feelings.'' \16\ Jampa Phuntsog (Xiangba Pingcuo), Chairman of 
the Standing Committee of the TAR People's Congress, said the 
same month during a visit to the United States that Tibetans 
``could have developed much better without the Dalai Lama and 
his followers,'' and that if the Dalai Lama ``is indeed a 
religious person'' he should ``not dabble in'' political 
issues.\17\ China's official media reported in August that as 
part of a ``major leadership reshuffle'' the Party Central 
Committee transferred Hebei province Deputy Party Secretary 
Chen Quanguo to the TAR to replace Zhang as Secretary, and 
posted Zhang to Hebei as Party Secretary.\18\
    During the past reporting year, senior officials continued 
to assert the Chinese government's intention to supervise the 
selection of the next Dalai Lama and to challenge the current 
Dalai Lama's views on the matter. Jampa Phuntsog, also 
Executive Deputy Secretary of the TAR Party Committee,\19\ 
characterized the Dalai Lama's recent remarks as ``the biggest 
obstacle to the normal continuation of Tibetan Buddhism'' and 
objected to the Dalai Lama's remarks about his own 
reincarnation.\20\ He observed: ``The Dalai Lama's attitude on 
this question is that there is sometimes reincarnation and 
sometimes no reincarnation, and the living Buddha may return as 
a man, a woman or a foreigner. Recently he even talked about 
stopping the reincarnation.'' \21\ The comment refers to 
remarks attributed to the Dalai Lama as recently as October 
2010 stating that his reincarnation would take place ``in a 
free country,'' \22\ and that he may choose to identify and 
train his successor before he dies, or Tibetans might elect to 
discontinue the institution of the Dalai Lama.\23\ Pema Choling 
(Baima Chilin), Chairman of the TAR People's Government and 
Deputy Secretary of the TAR Party Committee, said the Dalai 
Lama's views on reincarnation are ``impossible.'' \24\ In July 
2011, the Dalai Lama rejected government and Party intrusion 
into the matter of Tibetan Buddhist reincarnation as a 
``disgrace'' and stated with respect to his own reincarnation, 
``[The] final authority is myself and no one else, and 
obviously not China's Communists.'' \25\


 prefectural regulatory measures tighten control on ``tibetan buddhist 
                               affairs''


    The central government and 9 of the 10 Tibetan autonomous 
prefectural governments \26\ issued or drafted regulatory 
measures as of August 2011 that increase substantially the 
state's infringement of freedom of religion in Tibetan Buddhist 
monasteries and nunneries. The measures increase curbs on 
protection of ``freedom of religious belief'' \27\ as provided 
under China's Constitution by imposing greater subordination of 
``Tibetan Buddhist affairs'' to government regulations that 
enforce Communist Party policy.
    In Qinghai province, for example, from July 2009 to 
September 2010, people's congresses in five of Qinghai's six 
Tibetan Autonomous Prefectures (TAPs) put into effect 
regulations on Tibetan Buddhist affairs to fulfill Party 
objectives.\28\ The regulations followed a provincial Party 
committee determination in May 2008 that Tibetan Buddhist 
monasteries in the province had ``drifted freely beyond the 
government's management by law and supervision by the public.'' 
\29\ As a result, the Qinghai government issued an ``opinion'' 
\30\ proposing that Tibetan Buddhist monasteries and nunneries 
be required to implement a ``new system'' based on ``Party 
committee leadership, government responsibility, . . . and 
management in accordance with the law by religious affairs 
departments and other concerned departments.'' \31\
    As of April 2011, new regulatory measures on ``Tibetan 
Buddhist affairs'' were in effect in a total of seven TAPs 
located in three provinces: \32\ Huangnan (Malho) TAP,\33\ 
Hainan (Tsolho) TAP,\34\ Haibei (Tsojang) TAP,\35\ Guoluo 
(Golog) TAP,\36\ and Haixi (Tsonub) Mongol and Tibetan AP in 
Qinghai province; \37\ Aba (Ngaba) Tibetan and Qiang Autonomous 
Prefecture (T&QAP) in Sichuan province; \38\ and Diqing 
(Dechen) TAP in Yunnan province.\39\ Prefectural regulations 
reportedly were in the legislative process in Yushu (Yulshul) 
TAP, Qinghai,\40\ and Ganzi (Kardze) TAP, Sichuan.\41\ As of 
August 2011, the Commission had not observed information on 
whether Gannan (Kanlho) TAP, Gansu province, was preparing such 
a regulation. The 10 TAPs make up approximately half the area 
the Chinese government designates as ``Tibetan autonomous,'' 
and approximately half the Tibetan population of the Tibetan 
autonomous areas lives in the 10 TAPs.\42\ The central 
government issued national-level regulations effective November 
1, 2010,\43\ that along with the prefectural-level regulations 
tighten and expand existing means of government control and 
monitoring of Tibetan Buddhist institutions.\44\


      common features among new tibetan buddhist affairs measures


    A summary of the Commission's analysis of the points of 
similarity among the national regulations \45\ and four of the 
prefectural-level regulations (Huangnan TAP \46\ and Hainan TAP 
\47\ in Qinghai, Aba T&QAP \48\ in Sichuan, and Diqing TAP \49\ 
in Yunnan) follows.\50\
    Prioritizing Tibetan Buddhist obligation to support Chinese 
government policies. The regulatory measures build on existing 
government and Communist Party policies mandating that Tibetan 
Buddhist institutions (like other state-sanctioned religious 
institutions) must protect Chinese national and ethnic unity 
and ``social stability,'' \51\ promote patriotism toward China 
and adherence to socialism,\52\ and obey Chinese government 
laws and regulations.\53\
    ``Buddhist Associations'' (BAs): Greater authority over 
monastic institutions. BAs--institutional links between Tibetan 
Buddhist institutions and the Chinese government and Party that 
facilitate the exercise of government and Party authority over 
Tibetan Buddhist activity \54\--must, among other duties, 
approve or revoke the official status of monks and nuns as 
``religious personnel'' in accordance with government 
requirements; \55\ approve quotas on the number of monks or 
nuns who may reside at a monastery or nunnery; \56\ and conduct 
classes educating Tibetan Buddhist ``religious personnel'' on 
patriotism toward China, Chinese laws and regulations 
(including on religion), and adapting Tibetan Buddhism to 
socialism.\57\
    ``Democratic Management Committees'' (DMCs): Subject to 
greater scrutiny, subordination to government authority. The 
regulatory measures impose closer supervision of each 
monastery's Democratic Management Committee--a monastic group 
legally obligated to ensure that monks, nuns, and teachers obey 
government laws, regulations, and policies.\58\ The measures 
empower three types of agencies to supervise or monitor DMCs: 
BAs, government religious affairs bureaus (RABs), and village-
level ``peoples'' or ``masses'' committees.\59\ Provisions 
require DMCs (under BA supervision and in compliance with 
central government measures issued in 2007 \60\) to direct the 
process of identifying, seating, and educating trulkus \61\--
teachers whom Tibetan Buddhists believe are reincarnations. For 
the first time, DMCs must fulfill a central government 
requirement to apply for, justify, and receive approval for a 
fixed quota on the number of monks or nuns who may reside at a 
monastery or nunnery.\62\
    ``Religious personnel'': Subject to more detailed control 
over religious contact, travel, study. The measures strengthen 
external supervision of DMCs, Tibetan Buddhist teachers, 
trulkus, monks, and nuns by requiring their submission to 
administration and guidance by governments at the prefectural, 
county, and township levels, and by village-level residents 
committees.\63\ Most of the prefectural measures impose 
requirements on ``religious personnel'' who wish to travel to 
another county or prefecture to study or teach Buddhism.\64\ 
The national measures impose the most difficult requirements: 
First, ``religious personnel'' must apply for and receive 
approval from the prefectural-level BA where they live and from 
the prefectural-level BA where they hope to study or teach; 
then each BA granting approval must report the approval to the 
corresponding prefectural-level RAB.\65\
    Township-level governments: Expanded responsibility, 
authority over monasteries, nunneries. The prefectural 
regulatory measures expand significantly township-level 
government authority to implement regulations on Tibetan 
Buddhist activity at monasteries and nunneries. All five of the 
regulations for Qinghai TAPs for which text was available 
online as of August 2011 contained articles empowering 
township-level governments to monitor and supervise monastic 
activity.\66\ Regulations for four of the Qinghai TAPs state 
explicitly that township governments have the responsibility to 
``manage'' Tibetan Buddhist affairs within the township 
area.\67\ Enabling township governments to take on greater 
responsibility for regulating Tibetan Buddhist affairs is 
important because there are so many township-level governments. 
As of 2007, there were a total of 998 township-level 
governments subordinate to 75 county-level governments in the 
10 TAPs outside the TAR \68\--an average of 13 township 
governments under each county government.
    Village-level committees: Expanded role as grassroots 
monitors, supervisors. Most of the prefectural regulatory 
measures for which text was available online as of August 2011 
included a greater monitoring, supervisory, and reporting role 
for village-level committees than did previous measures.\69\ 
Measures effective in Aba T&QAP, Sichuan, for example, provide 
village committees a role in reviewing applications from 
persons who wish to become monks or nuns, and in supervising 
monks and nuns.\70\ The national regulations provide for the 
first time a legal basis for placing a village committee member 
on a DMC--and by doing so, empower the village committee member 
to participate directly in DMC decisionmaking.\71\


        distinctions between the prefectural regulatory measures


    A summary of some principal areas of distinction between 
the seven prefectural-level regulatory measures for which text 
was available online as of August 2011 follows.
    Dedicated village-level committees monitor, supervise, 
report on monastic activity. All five of the Qinghai province 
TAP regulations include provisions that establish ``masses 
supervision and appraisal committees'' (MSACs, qunzhong jiandu 
pingyi weiyuanhui).\72\ MSACs are a new development with 
respect to their specific role in government management of 
Tibetan Buddhist affairs.\73\ Township governments guide 
selection of MSAC members from among village residents, 
herders, and monastery staff.\74\ Regulations mandate MSACs to 
fulfill specific duties in supervising, monitoring, and 
appraising monastic management (especially DMCs), 
administration (including financial affairs), and Buddhist 
teaching.\75\ MSACs must submit periodic reports to township- 
and county-level governments.\76\
    Extent of provisions for administrative and criminal 
punishment. The regulatory measures vary in the extensiveness 
and specificity of language describing activity that may result 
in administrative penalties (e.g., expulsion) or criminal 
punishment (e.g., imprisonment) of ``religious personnel.'' 
\77\ Three prefectural measures (Hainan, Guoluo, Aba) contain 
more extensive descriptions of punishable activity; \78\ three 
prefectural measures (Haibei, Haixi, Diqing) contain less 
extensive descriptions of punishable activity; \79\ and one 
prefectural measure (Huangnan) contains language that is mid-
range.\80\ Information available as of February 2011 in the 
Commission's Political Prisoner Database demonstrated a 
positive correlation between the number of Buddhist monks, 
nuns, teachers, or trulkus detained in each TAP on or after 
March 10, 2008, and the extensiveness of regulatory measures' 
provisions on punishment.\81\
    Provision for potential redress against administrative 
punishment. Four of the prefectural regulations (Huangnan, 
Hainan, Guoluo, Diqing) for which text was available online as 
of August 2011 contain provisions allowing a person punished 
administratively under the regulations either to seek 
administrative reconsideration of the punishment or to file a 
lawsuit against the punishment.\82\ Three of the four 
regulations (Huangnan, Haibei, Guoluo) cite the PRC 
Administrative Reconsideration Law \83\ and PRC Administrative 
Litigation Law \84\ as the legal instruments for undertaking 
such action.\85\ The Hainan, Haixi, and Aba regulatory measures 
do not mention administrative reconsideration or filing an 
administrative lawsuit.

      Tibetan Cultural Expression: Increasing Pressure, Punishment

    Chinese government and Communist Party policies and their 
implementation increased pressure on and sometimes threatened 
Tibetan cultural expression during the Commission's 2011 
reporting year. Political detentions in 2011 increased compared 
to 2009 and 2010 but were lower than the high level of 
2008.\86\ Security and judicial officials used China's legal 
system to detain and imprison Tibetan writers, artists, 
intellectuals, and cultural advocates who turned to veiled 
language to lament the status of Tibetan culture or criticize 
government policies toward the Tibetan people and culture. The 
government seeks to prevent such Tibetans from influencing 
other Tibetans and uses imprisonment to remove them from 
society. Examples follow of developments this reporting year 
that involved imprisonment, detention, and a police manhunt. In 
two separate cases, monks committed self-immolation to protest 
China's handling of Tibetan issues.
    January 2011: Detention after publishing an article.\87\ 
Public security officials reportedly detained monk-writer 
Tsering Tenzin of Palyul Monastery, located in Ganzi (Kardze) 
Tibetan Autonomous Prefecture (TAP), in connection with an 
essay he wrote that was published in 2010 in a collection of 
articles on ``the situation inside Tibet.'' \88\ In February 
2010, officials in Hongyuan (Marthang) county,\89\ Aba (Ngaba) 
Tibetan and Qiang Autonomous Prefecture, detained monk Tsering 
Dondrub of Rongtha Monastery for assisting with 
publication.\90\
    Winter 2010: Detention for downloading banned songs.\91\ 
During a winter ``strike hard'' campaign in the Tibet 
Autonomous Region (TAR), security officials punished Tibetans 
who had downloaded ``prohibited'' songs such as ``Voice of 
Unity,'' ``My Lama,'' and ``I Miss the Sun, Moon, and Stars,'' 
with 10 to 15 days of detention and a fine. Police allegedly 
beat some detainees.\92\
    December 2010: Imprisonment for writing articles about the 
2008 Tibetan protests.\93\ The Aba Intermediate People's Court 
sentenced three contributing editors of a Tibetan-language 
magazine to imprisonment for ``inciting splittism'' (PRC 
Criminal Law, Article 103(2)): Buddha (a pen name) and Jangtse 
Donkho, four years; and Kalsang Jinpa, three years.\94\
    December 2010: Redetention for making video appeal.\95\ 
Public security officials in Xiahe (Sangchu) county, Gannan 
(Kanlho) TAP, Gansu province, reportedly redetained monk-writer 
Kalsang Tsultrim of Labrang Tashikhyil Monastery on December 
16, 2010.\96\ Officials released him on bail the previous 
October after detaining him in July 2010 for distributing a 
video CD of him speaking about concern for the Tibetan culture 
and religion.\97\
    December 2010: Detention after publishing articles, 
organizing conferences.\98\ Public security officials in Lhasa 
city reportedly detained monk-writer Tenpa Lodroe on December 
29, 2010, reportedly in connection with a December 20 
conference on ``the situation in Tibet'' arranged in Ganzi TAP, 
Sichuan province.\99\
    September 2010: Arrest warrant issued for singer after CD 
release.\100\ In the second half of September, public security 
officials in Lhasa city reportedly issued an arrest warrant for 
singer Pasang Tsering and banned his newly released CD.\101\ 
Officials allegedly suspected the lyrics of praising the Dalai 
Lama and ``inciting ethnic sentiments.'' \102\ As of late 
September 2010, relatives had lost contact with him.\103\
    March 2011: Self-immolation to mark anniversary of 2008 
protest.\104\ On March 16, 2011, monk Phuntsog of Kirti 
Monastery, located near the Aba county seat, Aba T&QAP, set 
himself on fire to protest the fatal shooting on the same date 
in 2008 of at least 10 Tibetan protesters.\105\ As he burned, 
Phuntsog reportedly shouted slogans calling for the Dalai 
Lama's long life.\106\ Phuntsog died in a hospital the next 
morning.\107\ Officials forced Kirti monks to submit to 
political education starting March 21; \108\ on April 21, 
People's Armed Police (PAP) removed at least 300 of the monks 
and took them to other counties to undergo ``legal education.'' 
\109\ PAP and other police allegedly beat severely Tibetans who 
attempted to block removal of the monks, resulting in serious 
injuries and the deaths of two elderly Tibetans.\110\ On August 
29 and 30, 2011, a county-level court in Aba T&QAP sentenced 
three Kirti monks to 10-, 11-, and 13-year prison terms for 
Phuntsog's ``intentional homicide,'' claiming that two monks 
``plotted, instigated and assisted'' in the self-immolation and 
one monk delayed medical treatment.\111\ International media 
and advocacy group reports described the convicted monks' 
intentions toward Phuntsog in terms of providing rescue, 
protection, and shelter.\112\
    August 2011: Self-immolation to protest Chinese policies. 
On August 15, monk Tsewang Norbu of Nyitso Monastery, located 
in the seat of Daofu (Tawu) county, Ganzi TAP, died after 
setting himself on fire as he shouted slogans calling for 
Tibetan freedom and the Dalai Lama's return to Tibet.\113\

  Education and Economic Development: Government Initiatives, Tibetan 
                                Protests

    Tibetan students and farmers protested government and 
Communist Party policies on education, the environment, and 
rural Tibetans' use of farming and grazing lands during the 
Commission's 2011 reporting year. Such protests indicate that 
Tibetans \114\ consider the policies a threat to the Tibetan 
culture, language, and environment, and the viability of 
farming and herding as a means of livelihood for rural 
Tibetans--who made up approximately 87 percent of Tibetans in 
China in 2000.\115\


     tibetan students, teachers protest government education policy


    Events this past year, detailed below, highlighted the 
importance Tibetans attribute to the status of Tibetan 
language, its level of use in the education system,\116\ and 
the threat that government and Party policy pose to the status 
and use of Tibetan language.\117\ Senior Party and government 
officials issued a series of statements \118\ on plans to 
reduce the status and level of use of Tibetan language during 
the period from 2010 to 2020.\119\ Tibetan student-led 
protests, principally in Qinghai province,\120\ resulted in 
retired Tibetan cadres and educators submitting a petition (or 
``letter'') to Communist Party and government offices asserting 
that the Qinghai government was implementing reforms that 
contravene provisions in China's Constitution and the Regional 
Ethnic Autonomy Law (REAL).\121\
    The speed with which protests spread suggests that Tibetan 
discontent with education policy may be widespread.\122\ 
Tibetan teachers' and students' views in Qinghai on the role of 
Tibetan language in education are unlikely to differ 
significantly from Tibetan views in other Tibetan autonomous 
areas.\123\ A chronology of principal events from October 15 to 
29, 2010, follows.
    October 15: Teachers sign letter criticizing bilingual 
education reform. As a ``Tibetan Language Course Reforms 
Training'' attended by more than 300 teachers employed at 
Qinghai province Tibetan-language primary and middle schools 
concluded,\124\ attendees reportedly signed a petition (or 
``letter'') on October 15 calling on Qinghai officials to 
continue to treat Tibetan language as the ``language of 
instruction'' in Tibetan schools.\125\ The teachers reportedly 
were responding to the ``Qinghai Province Mid- and Long-Term 
Plan for Educational Reform and Development (2010-2020)'' \126\ 
(the Plan).\127\ The petition reasoned that ``choice of 
language of instruction should depend entirely on those being 
taught.'' \128\
    October 19: Student protests begin. Students at schools in 
Tongren (Rebgong), the Huangnan (Malho) Tibetan Autonomous 
Prefecture (TAP) capital,\129\ reportedly protested on October 
19 in response to a report that Qinghai Party Secretary Qiang 
Wei ``ordered that the language used in textbooks should be 
changed to Chinese.'' \130\ Students carried banners demanding 
expanded use of Tibetan language \131\ and circulated a text 
message claiming the central government had decided to cancel 
``Tibetan-language centered'' education.\132\ Qiang had 
instructed educators in September to increase Chinese-language 
teaching and ``conquer the erroneous thinking that if minority 
nationality students undergo an education based on the state's 
common language [Mandarin] and script it will hurt the feelings 
of the minority nationality masses, or effect the development 
of the minority nationality culture, or impact social 
stability.'' \133\ Protests reportedly spread to Beijing and 
Hainan (Tsolho), Haibei (Tsojang), and Guoluo (Golog) TAPs in 
Qinghai.\134\
    October 22: Qinghai education head defends reform. Director 
Wang Yubo of the Qinghai Department of Education acknowledged 
on October 22 that students had ``expressed their 
dissatisfaction'' with the ``bilingual education reform plan,'' 
and attributed the incidents to students' ``misunderstanding.'' 
\135\ He referred to an ``outline'' of the Plan issued by the 
provincial government and Party on September 12, and confirmed 
that among the ``main goals'' was for instructors to ``adhere 
to mainly teaching with the state's standard spoken and written 
language [Mandarin].'' \136\
    October 24: Retired cadres and educators argue that 
education reforms are illegal. A petition signed on October 24 
by ``retired Tibetan cadres and veteran education workers'' in 
Qinghai's capital, Xining, analyzed perceived violations of 
China's Constitution and Regional Ethnic Autonomy Law 
(REAL),\137\ and other laws that resulted in the infringement 
of ethnic minorities' rights.\138\ The educators submitted the 
letter to central-, provincial-, and prefectural-level Party, 
legislative, government, and consultative bodies.\139\ The 
petition ``proposed'' that the Qinghai Province Education 
Department ``immediately stop the enforcement of the illegal 
provision for using Chinese as the only language for teaching'' 
\140\ and cited the Constitution and REAL, Article 20, as the 
legal basis for non-implementation.\141\
     October 25: Officials describe diminished scope for 
Tibetan language use. At a forum convened on October 25 to 
``study and implement the spirit'' of the Plan,\142\ Gao 
Yunlong, Vice Chairman of the Qinghai People's Government, told 
government, academic, and other personnel that Mandarin is the 
appropriate language for use in ``public places'' and ethnic 
languages are suitable for ``one's home location.'' \143\ He 
justified the decision to exclude ethnic languages from 
teaching ``scientific'' subjects such as ``mathematics, 
physics, and chemistry'' and said that exclusion ``does no harm 
to carrying ethnic culture forward.'' \144\
    October 27: Party Secretary ties reforms to ``national 
unity,'' protests to ``plots.'' Qiang Wei on October 27 linked 
support of bilingual education reform to protecting ``national 
sovereignty'' and promoting ``national and ethnic unity.'' 
\145\ He described ``unity of spoken and written language'' as 
``a fundamental and essential condition for a unified 
country.'' \146\ He warned Qinghai Party members that 
``domestic and foreign hostile forces will seek to exploit our 
promotion of bilingual education reform as an opportunity to 
plot, orchestrate, incite, and provoke disturbances, . . . and 
to destroy our social situation of unity and stability.'' \147\


      rural tibetans protest economic development mainstay: mining


    Rural Tibetans protested during the 2011 reporting year 
against what they consider to be adverse effects of Chinese 
government and Communist Party economic development policies--
especially mining--that prioritize government objectives above 
respecting or protecting the Tibetan culture and 
environment.\148\ Officials justify such policies in part by 
publicizing statistical indicators such as rising GDP \149\ and 
household income.\150\ At the same time, government officials 
emphasized the dependency of the Tibetan Autonomous Region 
(TAR) on central support: State Ethnic Affairs Commission 
Minister Yang Jing asserted that the central government 
provided in the form of subsidies 90 percent of the funds the 
TAR government spent from 2001 to 2010.\151\ Statistics are 
difficult to locate on central government revenue derived from 
natural resource extraction in Tibetan autonomous areas--
China's Constitution appropriates ownership of natural 
resources throughout China to the central government.\152\ The 
value of such resources in the TAR may be as high as 600 
billion yuan (US$93.8 billion), according to a December 2010 
official media report \153\--about double the total 2001 to 
2010 subsidies the central government provided to the TAR.\154\
    Examples of reported incidents of Tibetan protest against 
economic development initiatives follow.
    November-December 2010: Protest and detentions in Rikaze 
(Shigatse) prefecture, TAR. On December 18, People's Armed 
Police (PAP) ended a standoff that began on November 22 when 
Tibetans began to protest and petition against the start of 
mining activity near Lingka Monastery in Xietongmen 
(Shetongmon) county, Rikaze.\155\ PAP allegedly beat protesters 
and detained 17 persons, including the Lingka abbot (Kalsang) 
and four monks (Jamyang Rigsang, Jamyang Tsering, Rigzin Pema, 
and Tsewang Dorje).\156\
    September-October 2010: Protest and detentions in Naqu 
(Nagchu) prefecture, TAR. Tibetans in Biru (Driru) county 
reportedly attempted to block Chinese workers who arrived in 
August 2010 to begin construction of a dam near a mountain 
Tibetans regard as sacred.\157\ Villagers claimed workers 
intended to establish mines in the area, asserted that they had 
the right to protect the local environment, and refused to 
move.\158\ On September 26, the construction team claimed to 
have received a mining permit agreed to by the TAR Party 
secretary.\159\ Security officials reportedly detained protest 
leaders Dorje Dragtsal and Palden Choedrag and three other 
Tibetans, Buphel, Tsegon, and Samten, who presented a petition 
to Naqu authorities.\160\
    August 2010: Protest, shooting, detentions in Ganzi 
(Kardze) TAP, Sichuan. On August 18 security officials in the 
seat of Baiyu (Palyul) county, Ganzi Tibetan Autonomous 
Prefecture (TAP), opened fire on a group of about 100 Tibetans 
petitioning outside county government offices against a 
Shanghai-based mining company's expanded gold-mining 
operations.\161\ Villagers alleged that mining had damaged 
their farming and grazing lands.\162\ Gunfire reportedly killed 
``at least four'' Tibetans and wounded about 30 after a 
``scuffle'' broke out.\163\ China's official media reported 
that police fired warning shots after Tibetans attacked them 
and a ``stray bullet'' killed one Tibetan; police detained 35 
Tibetans.\164\
    May-July 2011: Protest and detentions in Changdu (Chamdo) 
prefecture, TAR. After Tibetans learned that Chinese laborers 
had been ``deployed'' in May 2011 to work at mining locations 
in Zuogong (Dzogang) county, Changdu, authorities warned 
residents that protests against mining activity ``would be 
construed as politically motivated,'' according to a media 
report's unidentified source.\165\ During June and July, 
security officials allegedly detained approximately 50 Tibetans 
(15 named) linked to protest activity.\166\ Detainees included 
``village officials'' Arsong, Tashi Namgyal, and Jamyang 
Trinle, who traveled to the TAR capital, Lhasa, to ``protest'' 
the mining and detentions, and alleged protest ``ringleaders'' 
Tenzin and Tashi.\167\


          settling nomads, building railways, replacing yushu


    Chinese officials continued to implement policies and 
announce projects over this past year that some Tibetans 
believe threaten the Tibetan culture and heritage. Pema Choling 
(Baima Chilin), Chairman of the TAR People's Government, said 
on January 10, 2011, that the government had settled or 
resettled ``1.43 million farmers and herdsmen of 275,000 
households'' into new housing \168\--one of the initiatives of 
a program the Party refers to as ``construction of a new 
socialist countryside'' \169\ and that Party General Secretary 
and President of China Hu Jintao named as a top development 
priority at the 2010 Fifth Forum on Work in Tibet.\170\ Based 
on a reported total TAR rural population of 2.21 million,\171\ 
the government has completed the compulsory settlement or 
resettlement of nearly two-thirds of the TAR rural 
population.\172\ The Commission has not observed statistics 
during the past year on compulsory settlement or resettlement 
in other Tibetan autonomous areas.
    The Chinese government provided updates this past year on 
construction of the railway network that will crisscross the 
Tibetan plateau and has the potential to impact profoundly the 
Tibetan culture and environment.\173\

        <bullet>  Lhasa-Rikaze (Shigatse) railway. In February 
        2011, state-run media reported that the 253-kilometer 
        westward link from Lhasa to Rikaze will be completed by 
        2015 (the end of the period of the TAR 12th Five-Year 
        Plan on Economic and Social Development).\174\ On 
        September 2, China Daily reported the railway will 
        begin operating in 2014 but did not cite the source of 
        the information.\175\ The estimated cost of building 
        the railway as of the September 2010 start of 
        construction was 13.3 billion yuan \176\ (US$2.1 
        billion)--approximately 20 percent greater than the 11 
        billion yuan (US$1.7 billion) estimate reported in 
        April 2009.\177\
        <bullet>  Lhasa-Linzhi (Nyingtri) railway. Construction 
        of the eastward link from Lhasa to Linzhi will begin 
        during the period of the TAR 12th Five-Year Plan.\178\ 
        The Commission has not observed information about 
        whether the railway will be built along the north or 
        the south side of the Yarlung Tsangpo (Yalung Zangbo, 
        Brahmaputra) River.\179\
        <bullet>  Sichuan-Tibet railway and Yunnan-Tibet 
        railway. The TAR will ``conduct a pre-construction 
        planning and study on the Sichuan-Tibet and Yunnan-
        Tibet railways'' during the TAR 12th Five-Year 
        Plan.\180\
        <bullet>  Ge'ermu (Golmud, Kermo)-Ku'erle (Korla) 
        railway. Construction of the railway linking Golmud 
        city in Haixi (Tsonub) Mongol and Tibetan Autonomous 
        Prefecture, Qinghai province, with Ku'erle (Korla) 
        city, the capital of Bayingguoleng (Bayingolin) Mongol 
        Autonomous Prefecture in the Xinjiang Uyghur Autonomous 
        Region (XUAR), will begin in 2011 and be complete by 
        2015.\181\ The railway will reduce the journey between 
        Urumqi city, the XUAR capital, and Lhasa city by more 
        than 1,000 kilometers.\182\
        <bullet>  Chengdu-Ge'ermu railway. Construction of the 
        railway linking Chengdu city, the Sichuan capital, and 
        Ge'ermu city may start by 2015, the end of the PRC 12th 
        Five-Year Plan on National Economic and Social 
        Development.\183\ The route traverses Ruo'ergai 
        (Dzoege) county in Aba (Ngaba) Tibetan and Qiang 
        Autonomous Prefecture, Yushu (Kyegudo) in Yushu TAP 
        (the site of an April 2010 earthquake \184\), and 
        Guoluo (Golog) TAP, Qinghai.\185\ Yushu and Guoluo are 
        the most ethnically Tibetan areas remaining outside the 
        TAR, based on official 2000 census data: Yushu TAP 
        (97.1 percent Tibetan), TAR (92.7 percent Tibetan), and 
        Guoluo TAP (91.6 percent Tibetan).\186\

    Tibetans protested in April 2011 against Chinese government 
plans for rebuilding Yushu (Kyegudo), the capital of Yushu 
(Yushul) TAP, Qinghai, severely damaged by an April 2010 
earthquake, and demanded that authorities ``fairly and 
legitimately'' resolve issues involving their residences and 
use of their land.\187\ Media reports between June 2010 and 
March 2011 revealed government plans to rename Yushu and 
transform it into an urban area traversed by a railway.\188\ 
Yushu's ``temporary'' name would be Sanjiangyuan \189\ (``three 
rivers source''), after a nearby nature reserve.\190\ The 
government will redesignate the administrative area as a 
``city,'' \191\ indicating that it will become the center of a 
substantial population and economy with a well-developed 
infrastructure.\192\ In June 2010, the Qinghai government 
announced the central government would provide most of 32 
billion yuan (US$4.68 billion) budgeted to rebuild the area 
\193\--a sum similar to the 33 billion yuan (then US$4.7 
billion) cost of constructing the Qinghai-Tibet railway.\194\ 
In March 2011, the Qinghai government announced that the 
Chengdu-Ge'ermu railway would pass through Yushu's 
location.\195\
    In January 2011, official media reports described Yushu as 
``flattened,'' \196\ but a June 2010 unofficial report noted 
that officials allegedly were expropriating Tibetan homes and 
businesses in sound condition so the government could redevelop 
the area.\197\ Tibetans have objected to government plans to 
move them from spacious homes to smaller apartment- or 
townhouse-style residences in other locations.\198\ On April 2, 
2011, approximately 300 Tibetans staged a sit-in protest in 
Yushu, claiming authorities either sold or expropriated their 
property without providing ``appropriate'' compensation.\199\ 
People's Armed Police allegedly ``attacked'' the protesters, 
detained about 40 of them, and cleared the area.\200\

   Summary Information: Tibetan Political Detention and Imprisonment


       post-march 10, 2008: lack of information, uncertain status


    During the Commission's 2011 reporting year, the Chinese 
government's failure to provide details about Tibetans 
detained, charged, or sentenced for peaceful, protest-related 
activity during the period since March 10, 2008, has resulted 
in prolonged uncertainty about the current status of hundreds 
of cases. As of September 1, 2011, the Commission's Political 
Prisoner Database (PPD) contained 1,134 records of Tibetan 
political prisoners detained on or after March 10, 2008--a 
figure certain to be far from complete. No information is 
available, however, on the outcome of more than half (623) of 
the cases. More than half (348) of the 623 unresolved cases are 
presumed to have resulted in release based on the substantial 
period of time since detention--three years or more in hundreds 
of cases.
    Among the 1,134 PPD records of Tibetan political detentions 
reported since March 2008, post-detention information is 
available for only 307 cases. Included in those 307 cases are 
21 Tibetans whom officials ordered to serve reeducation through 
labor (16 are believed released upon completing their terms), 
and 197 Tibetans whom courts sentenced to periods of 
imprisonment ranging from six months to life (79 are believed 
released upon sentence completion). Of the 197 Tibetan 
political prisoners sentenced to imprisonment since March 2008, 
sentencing information is available for 186 prisoners: the 
average sentence length is five years and three months based on 
PPD data as of September 1, 2011.\201\


          current tibetan political detention and imprisonment


    As of September 1, 2011, the PPD contained records of 527 
Tibetan political prisoners believed or presumed to be 
currently detained or imprisoned. Of those 527 records, 483 are 
records of Tibetans detained on or after March 10, 2008,\202\ 
and 44 are records of Tibetans detained prior to March 10, 
2008. PPD information for the period since March 10, 2008, is 
certain to be far from complete.
    Of the 483 Tibetan political prisoners believed or presumed 
to be currently detained or imprisoned and who were detained on 
or after March 10, 2008, according to PPD data as of September 
1, 2011:

        <bullet>  More than half (264) are believed or presumed 
        to be detained or imprisoned in Sichuan province; the 
        rest are believed or presumed to be detained or 
        imprisoned in the Tibet Autonomous Region (160), Gansu 
        province (23), Qinghai province (34), the Xinjiang 
        Uyghur Autonomous Region (1), and Beijing (1).
        <bullet>  113 are serving sentences ranging in length 
        from one year and six months to life imprisonment; the 
        average sentence length is seven years and two 
        months.\203\ Sixty-two (55 percent) of the 113 
        prisoners with known sentences are monks, nuns, or 
        Tibetan Buddhist teachers or trulkus.
        <bullet>  240 (50 percent) are Tibetan Buddhist monks, 
        nuns, teachers, or trulkus.
        <bullet>  425 (88 percent) are male, 51 (11 percent) 
        are female, and 7 are of unknown gender.

    Sentencing information is available on 27 of the 44 Tibetan 
political prisoners detained prior to March 10, 2008, and 
believed to remain imprisoned. Their sentences range in length 
from five years to life imprisonment; the average sentence 
length is 14 years and 3 months.\204\

 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                Endnotes

    \1\ The Dalai Lama has made a statement on the anniversary of the 
March 10, 1959, Lhasa uprising every year that he has lived in exile, 
beginning in 1960. The statements for the years 1961 to 2011 are 
available on the Web site of His Holiness the Dalai Lama.
    \2\ Office of His Holiness the Dalai Lama, ``Statement of His 
Holiness the Dalai Lama on the 52nd Anniversary of the Tibetan National 
Uprising Day,'' 10 March 11. For information about the Middle Way 
Approach, see Office of His Holiness the Dalai Lama, ``His Holiness's 
Middle Way Approach for Resolving the Issue of Tibet,'' last visited 3 
June 08.
    \3\ Office of His Holiness the Dalai Lama, ``Statement of His 
Holiness the Dalai Lama on the 52nd Anniversary of the Tibetan National 
Uprising Day,'' 10 March 11.
    \4\ Office of His Holiness the Dalai Lama, ``Message of His 
Holiness the Dalai Lama to the Fourteenth Assembly of the Tibetan 
People's Deputies,'' 11 March 11. (The U.S. Government does not 
recognize the ``Central Tibetan Administration'' (Tibetan ``government-
in-exile'') as a government. See, e.g., ``Report on Tibet Negotiations, 
March 2009-February 2010,'' reprinted in International Campaign for 
Tibet, last visited 21 March 11. The copy posted on the ICT Web site 
does not include the name of the issuing authority. The Report is 
mandated by Sections 611 (Tibetan Policy Act of 2002) and 613(b) of the 
Foreign Relations Authorization Act, 2003, which direct the President 
to submit such a report annually to Congress. The Department of State 
customarily prepares the report. The report states, ``Since the U.S. 
Government does not recognize Tibet as an independent state, the United 
States does not conduct official diplomatic relations with the Tibetan 
`government-in-exile' in Dharamsala, India.'')
    \5\ Phurbu Thinley, ``Dalai Lama Asks Tibetans To Embrace 
Democratic Change, Rejects Parliament's Resolution,'' Phayul, 19 March 
11. The Dalai Lama reportedly said, ``If [relinquishing political 
power] happens, like the first, second, third and fourth Dalai Lamas I 
can concentrate more effectively on [the] spiritual role.''
    \6\ Office of His Holiness the Dalai Lama, ``Statement of His 
Holiness the Dalai Lama on the 52nd Anniversary of the Tibetan National 
Uprising Day,'' 10 March 11.
    \7\ Office of His Holiness the Dalai Lama, ``Message of His 
Holiness the Dalai Lama to the Fourteenth Assembly of the Tibetan 
People's Deputies,'' 11 March 11. The Dalai Lama stated in his prepared 
remarks, ``Since the Fifth Dalai Lama's founding of the Ganden Phodrang 
[Gaden Phodrang] Government of Tibet in 1642, successive Dalai Lamas 
have been both the spiritual and temporal leaders of Tibet. . . . The 
essence of a democratic system is, in short, the assumption of 
political responsibility by elected leaders for the popular good. In 
order for our process of democratization to be complete, the time has 
come for me to devolve my formal authority to such an elected 
leadership.'' Phurbu Thinley, ``Dalai Lama Asks Tibetans To Embrace 
Democratic Change, Rejects Parliament's Resolution,'' Phayul, 19 March 
11. According to the article, the Dalai Lama said, ``So as the 14th 
Dalai Lama of Tibet, I take pride and freedom to voluntarily relinquish 
the political power wielded by the institution of the Dalai Lama (Gaden 
Phodrang).''
    \8\ ``Press Conference on Central Govt's Contacts With Dalai Lama 
(Text),'' China Daily, 11 February 10. According to the interview 
transcript, United Front Work Department Deputy Head Zhu Weiqun said, 
``[The Dalai Lama] is not a religious figure; instead he is the head of 
a separatist political group, who leads a government-in-exile with an 
illegal constitution, a constitution which describes that the 14th 
Dalai Lama is the supreme head both politically and relationally of 
this political group.''
    \9\ The Dalai Lama: What He Means for Tibetans Today, Roundtable of 
the Congressional-Executive Commission on China, 13 July 11, Written 
Statement Submitted by Maria Otero, Under Secretary of State for 
Democracy and Global Affairs, U.S. Department of State, and Member, 
Congressional-Executive Commission on China.
    \10\ Ibid.
    \11\ ``Zhang Qingli: Overall Situation in Tibet Stable,'' Xinhua, 7 
March 11 (translated in Open Source Center, 12 March 11); ``Qiangba 
Puncog [Xiangba Pingcuo]: The Dalai Lama Should Apply Himself to the 
Study of Buddhism and Stand Aloof From Worldly Affairs,'' China News 
Agency, 16 March 11 (translated in Open Source Center, 16 March 11).
    \12\ See, e.g., ``Government Work Report-Delivered by Tibet 
Autonomous Regional Chairman Baima Chilin at the Fourth Session of the 
Ninth Autonomous Regional People's Congress on 10 January 2011'' [2011 
nian 1 yue 10 ri zai zizhiqu dijiu jie renmin daibiao dahui disi ci 
huiyi shang zizhiqu zhuxi baima chilin], Tibet Daily, 9 February 11 
(translated in Open Source Center, 25 February 11). Chairman of the TAR 
Government Pema Choling (Baima Chilin) urged the TAR People's Congress 
to ``speed up the establishment of a long-standing mechanism on 
monastery management, to protect the normal order of religion.'' Huang 
Zhiwu, ``Zhu Weiqun Leads a Working Group To Conduct an Investigation 
in Our Region'' [Zhu weiqun lu gongzuozu zai wo qu diaoyan], Tibet 
Daily, 7 April 11 (translated in Open Source Center, 11 April 11). 
According to the report, Zhu Weiqun, Executive Deputy Head of the 
Communist Party's United Front Work Department, said that it is 
``necessary to extensively and thoroughly conduct legal publicity and 
education as well as management and safeguard the normal order of 
religious activities.''
    \13\ China Directory 2010, ed. Radiopress (Kawasaki: RP Printing, 
2009), 17.
    \14\ Huang Zhiwu, ``Zhu Weiqun Leads a Working Group To Conduct an 
Investigation in Our Region'' [Zhu weiqun lu gongzuozu zai wo qu 
diaoyan], Tibet Daily, 7 April 11 (translated in Open Source Center, 11 
April 11).
    \15\ Ibid.
    \16\ ``Zhang Qingli: Overall Situation in Tibet Stable,'' Xinhua, 7 
March 11 (translated in Open Source Center, 12 March 11).
    \17\ ``Qiangba Puncog [Xiangba Pingcuo]: The Dalai Lama Should 
Apply Himself to the Study of Buddhism and Stand Aloof From Worldly 
Affairs,'' China News Agency, 16 March 11 (translated in Open Source 
Center, 16 March 11).
    \18\ Zhao Yinan, ``Govt Leadership Changes Continue,'' China Daily, 
30 August 11 (includes chart titled ``Major Leadership Reshuffle: 
Eleven Officials Have Changed Positions in Recent Weeks''); ``Chen 
Quanguo Becomes New Party Chief of Tibet,'' Xinhua, 25 August 11, 
reprinted in China Daily; ``Chen Quanguo, New Secretary of the Tibet 
Autonomous Region Party Committee, Says He Will Take Root in Tibet and 
Dedicate His Wisdom and Efforts,'' China News Agency, 25 August 11 
(translated in Open Source Center, 28 August 11).
    \19\ ``[Tibetan Autonomous] Region Party Committee Holds Special 
Report Meeting on Maintaining the Advanced Nature of Party Members, 
Emphasizes Insisting on Unwaveringly Grasping Development, Taking a 
Clear-Cut Stand on Grasping Stability, and Working Hard To Establish a 
Harmonious Tibet'' [Qu dangwei juxing baochi gongchan dang yuan 
xianjinxing zhuanti baogao hui qiangdiao jianding buyi de zhua fazhan, 
qizhi xianming de zhua wending, nuli jianshe hexie xizang], Tibet 
Daily, 7 April 05 (translated in Open Source Center, 12 May 05); 
``Qiangba Puncog [Xiangba Pingcuo],'' China Vitae, last visited 12 
April 11 (Executive Deputy Secretary of TAR Party Committee since 
2003).
    \20\ ``Qiangba Puncog [Xiangba Pingcuo]: The Dalai Lama Should 
Apply Himself to the Study of Buddhism and Stand Aloof From Worldly 
Affairs,'' China News Agency, 16 March 11 (translated in Open Source 
Center, 16 March 11).
    \21\ Ibid.
    \22\ Amitabh Pal, ``The Dalai Lama Interview,'' Progressive, 
January 2006. The Dalai Lama said, ``If the Tibetan people want another 
reincarnation, then logically while we're outside, the successor should 
be someone who can carry out this task, which has not yet been 
accomplished by the previous Dalai Lama. That means that he must come 
in a free country.''
    \23\ Evan Osnos, ``The Next Incarnation,'' New Yorker, 4 October 
10. ``[The Dalai Lama] has taken to musing aloud that he might be 
reincarnated as a woman, or that Tibetans might vote on whether the 
institution of the Dalai Lama should continue at all. Or, he says, he 
might select his own reincarnation while he is still alive . . . which 
would give him the chance to train a successor . . . . Only one thing 
is certain, he says: his successor will be found outside Tibet.''
    \24\ Sui-Lee Wee and Ben Blanchard, ``China Says Dalai Lama Has To 
Reincarnate,'' Reuters, 7 March 11.
    \25\ Ravi Nessman, ``Dalai Lama Calls Chinese Insistence on Picking 
His Religious Successor `a Disgrace,' '' Associated Press, 1 July 11, 
reprinted in Yahoo!.
    \26\ There are a total of 10 prefectural-level areas of ethnic 
Tibetan autonomy located in a total of four provinces in China: Qinghai 
province (Haibei [Tsojang] Tibetan Autonomous Prefecture (TAP), Hainan 
[Tsolho] TAP, Haixi [Tsonub] Mongol and Tibetan AP, Huangnan [Malho] 
TAP, Guoluo [Golog] TAP, and Yushu [Yulshul] TAP); Gansu province 
(Gannan [Kanlho] TAP); Sichuan province (Ganzi [Kardze] TAP and Aba 
[Ngaba] Tibetan and Qiang AP); and Yunnan province (Diqing [Dechen] 
TAP). For additional information on the Tibetan autonomous prefectures, 
see CECC, Special Topic Paper: Tibet 2008-2009, 22 October 09, 22-24.
    \27\ PRC Constitution, adopted 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 36 (``Citizens of the 
People's Republic of China enjoy freedom of religious belief. . . .'').
    \28\ Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 4 September 09, issued and effective 24 September 09; 
Hainan Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Hainan zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 8 July 09, issued and effective 31 July 09; Haibei Tibetan 
Autonomous Prefecture Tibetan Buddhist Affairs Regulations [Haibei 
zangzu zizhizhou zangchuan fojiao shiwu tiaoli], passed 12 January 10, 
approved 18 March 10, issued and effective 22 March 10; Guoluo Tibetan 
Autonomous Prefecture Tibetan Buddhist Affairs Regulations [Guoluo 
zangzu zizhizhou zangchuan fojiao shiwu tiaoli], passed 22 March 10, 
issued and effective 30 September 10; Haixi Mongol and Tibetan 
Autonomous Prefecture Tibetan Buddhist Affairs Regulations [Haixi 
mengguzu zangzu zizhizhou zangchuan fojiao shiwu tiaoli], passed 8 
March 10, approved 27 May 10, issued and effective 3 June 10.
    \29\ Ma Yong, ``New Changes at Qinghai's Tibetan Buddhist 
Temples,'' Outlook Weekly, 29 November 10 (translated in Open Source 
Center, 11 December 10).
    \30\ Ibid. In or after May 2008 (the report does not provide a 
date), ``[t]he province therefore drew up and distributed `Opinions on 
Guiding the Strengthening and Improving of the Social Management of 
Temples in Accordance With the Law.''
    \31\ Ibid.
    \32\ Based on Commission monitoring, as of August 2011, the first 
regulatory measures known to take effect were in Aba (Ngaba) Tibetan 
and Qiang Autonomous Prefecture, Sichuan province, reported and 
effective on July 24, 2009; the most recent regulatory measures known 
to take effect were in Guoluo (Golog) TAP, Qinghai province, effective 
September 30, 2010, and posted publicly on November 19, 2010. Aba 
Tibetan and Qiang Autonomous Prefecture Circular on Temporary Measures 
on Management of Tibetan Buddhist Affairs [Aba zhou renmin zhengfu 
guanyu yinfa aba zangzu qiangzu zizhizhou zangchuan fojiao shiwu guanli 
zanxing banfa de tongzhi], Find Law Net, 24 July 09; ``Qinghai Province 
`Guoluo Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations' Approved'' [Qinghai sheng ``guoluo zangzu zizhizhou 
zangchuan fojiao shiwi tiaoli'' huo pi], China Tibet News, 19 November 
10.
    \33\ Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 4 September 09, issued and effective 24 September 09.
    \34\ Hainan Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Hainan zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 8 July 09, issued and effective 31 July 09.
    \35\ Haibei Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Haibei zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 12 January 10, approved 18 March 10, issued and effective 22 
March 10.
    \36\ Guoluo Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Guoluo zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 22 March 10, issued and effective 30 September 10.
    \37\ Haixi Mongol and Tibetan Autonomous Prefecture Tibetan 
Buddhist Affairs Regulations [Haixi mengguzu zangzu zizhizhou zangchuan 
fojiao shiwu tiaoli], passed 8 March 10, approved 27 May 10, issued and 
effective 3 June 10.
    \38\ Aba Tibetan and Qiang Autonomous Prefecture Temporary Measures 
on Management of Tibetan Buddhist Affairs [Aba zangzu qiangzu zizhizhou 
zangchuan fojiao shiwu guanli zanxing banfa], issued and effective 24 
July 09. All of the regulatory measures listed are ``regulations'' 
(tiaoli) except for the Aba ``measures'' (banfa).
    \39\ Diqing Tibetan Autonomous Prefecture Regulation on Management 
of Tibetan Buddhist Monasteries [Diqing zangzu zizhizhou zangchuan 
fojiao siyuan guanli tiaoli], passed 14 April 09, approved 30 July 09, 
issued and effective 1 September 09.
    \40\ ``Qinghai People's Congress Standing Committee 2010 
Legislation Program'' [Qinghai sheng renda changweihui 2010 nian lifa 
jihua], 14 December 09, reprinted in Qinghai Province People's Congress 
Standing Committee, 3 March 10. According to the legislation plan, the 
Yushu Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Yushu zangzu zizhizhou zangchuan fojiao shiwi tiaoli] had 
been reported for approval.
    \41\ Sichuan Province People's Congress Standing Committee 2011 
Legislation Plan [Sichuan sheng renda changweihui 2011 nian lifa 
jihua], 21 February 11, reprinted in Sichuan Province People's Congress 
Standing Committee, 31 March 11. According to the legislation plan, the 
Ganzi Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Ganzi zangzu zizhizhou zangchuan fojiao shiwi tiaoli] had 
been reported for approval.
    \42\ The area of the Tibet Autonomous Region (TAR) (approximately 
1.2 million square kilometers), the 10 TAPs (approximately 1.02 million 
square kilometers), and 2 Tibetan autonomous counties (TACs) 
(approximately 0.019 million square kilometers) totals approximately 
2.24 million square kilometers. The 10 TAPs make up approximately 46 
percent of the TAR/TAP/TAC total area. According to China's 2000 census 
data, the Tibetan population of the TAR (approximately 2.43 million 
persons), the 10 TAPs (approximately 2.47 million persons), and the 2 
TACs (approximately 0.11 million persons) totaled approximately 5.01 
million Tibetans. The Tibetan population of the 10 TAPs made up 
approximately 49 percent of the TAR/TAP/TAC total Tibetan population as 
of 2000. Department of Population, Social, Science and Technology 
Statistics, National Bureau of Statistics et al., Tabulation on 
Nationalities of 2000 Population Census of China (Beijing: Ethnic 
Publishing House, 2003), Tables 10-1, 10-4; Steven Marshall and Susette 
Cooke, Tibet Outside the TAR: Control, Exploitation and Assimilation: 
Development With Chinese Characteristics (Washington, DC: Self-
published CD-ROM, 1997), Table 7, citing multiple Chinese sources. 
Table 7 provides the following information. Tibet Autonomous Region 
(1.2 million square kilometers, or 463,320 square miles). Qinghai 
province: Haibei [Tsojang] TAP (52,000 square kilometers, or 20,077 
square miles); Hainan [Tsolho] TAP (41,634 square kilometers, or 16,075 
square miles); Haixi [Tsonub] Mongol and Tibetan AP (325,787 square 
kilometers, or 125,786 square miles); Huangnan [Malho] TAP (17,901 
square kilometers, or 6,912 square miles; Guoluo [Golog] TAP (78,444 
square kilometers, or 30,287 square miles); and Yushu [Yulshul] TAP 
(197,791 square kilometers, or 76,367 square miles). Gansu province: 
Gannan [Kanlho] TAP (45,000 square kilometers, or 17,374 square miles) 
and Tianzhu [Pari] TAC (7,150 square kilometers, or 2,761 square 
miles). Sichuan province: Ganzi [Kardze] TAP (153,870 square 
kilometers, or 59,409 square miles); Aba [Ngaba] Tibetan and Qiang AP 
(86,639 square kilometers, or 33,451 square miles); and Muli [Mili] TAC 
(11,413 square kilometers, or 4,407 square miles). Yunnan province: 
Diqing [Dechen] TAP (23,870 square kilometers, or 9,216 square miles). 
The Table provides areas in square kilometers; conversion to square 
miles uses the formula provided on the Web site of the U.S. Geological 
Survey: 1 square kilometer = 0.3861 square miles. For more information 
on the Tibetan autonomous areas of China, see CECC, Special Topic 
Paper: Tibet 2008-2009, 22 October 09, 22-24.
    \43\ State Administration for Religious Affairs, Management 
Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao simiao 
guanli banfa], passed 29 September 10, effective 1 November 10.
    \44\ For detailed information on the regulations and the articles 
under which various controls are imposed, see ``Tibetan Buddhist 
Affairs Regulations Taking Effect in Tibetan Autonomous Prefectures,'' 
Congressional-Executive Commission on China, 10 March 11.
    \45\ State Administration for Religious Affairs, Management 
Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao simiao 
guanli banfa], passed 29 September 10, effective 1 November 10.
    \46\ Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 4 September 09, issued and effective 24 September 09.
    \47\ Hainan Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Hainan zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 8 July 09, issued and effective 31 July 09.
    \48\ Aba Tibetan and Qiang Autonomous Prefecture Temporary Measures 
on Management of Tibetan Buddhist Affairs [Aba zangzu qiangzu zizhizhou 
zangchuan fojiao shiwu guanli zanxing banfa], issued and effective 24 
July 09.
    \49\ Diqing Tibetan Autonomous Prefecture Regulation on Management 
of Tibetan Buddhist Monasteries [Diqing zangzu zizhizhou zangchuan 
fojiao siyuan guanli tiaoli], passed 14 April 09, approved 30 July 09, 
issued and effective 1 September 09.
    \50\ For more detailed information on provisions of the regulatory 
measures, see ``Tibetan Buddhist Affairs Regulations Taking Effect in 
Tibetan Autonomous Prefectures,'' Congressional-Executive Commission on 
China, 10 March 11, Table 2 titled Tibetan Buddhist Affairs Regulatory 
Measures: Selected Areas of Requirement, Prohibition, Control.
    \51\ See, e.g., State Administration for Religious Affairs, 
Management Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao 
simiao guanli banfa], passed 29 September 10, effective 1 November 10, 
art. 4; Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 4 September 09, issued and effective 24 September 09, arts. 4, 
20(1); Hainan Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Hainan zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 8 July 09, issued and effective 31 July 09, arts. 4, 16(2); Aba 
Tibetan and Qiang Autonomous Prefecture Temporary Measures on 
Management of Tibetan Buddhist Affairs [Aba zangzu qiangzu zizhizhou 
zangchuan fojiao shiwu guanli zanxing banfa], issued and effective 24 
July 09, arts. 3, 8; Diqing Tibetan Autonomous Prefecture Regulation on 
Management of Tibetan Buddhist Monasteries [Diqing zangzu zizhizhou 
zangchuan fojiao siyuan guanli tiaoli], passed 14 April 09, approved 30 
July 09, issued and effective 1 September 09, art. 3.
    \52\ See, e.g., State Administration for Religious Affairs, 
Management Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao 
simiao guanli banfa], passed 29 September 10, effective 1 November 10, 
arts. 4, 10; Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 4 September 09, issued and effective 24 September 09, 
arts. 4, 20(1); Hainan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Hainan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 8 July 09, issued and effective 31 July 09, art. 16(1) 
(no reference to socialism); Aba Tibetan and Qiang Autonomous 
Prefecture Temporary Measures on Management of Tibetan Buddhist Affairs 
[Aba zangzu qiangzu zizhizhou zangchuan fojiao shiwu guanli zanxing 
banfa], issued and effective 24 July 09, art. 17; Diqing Tibetan 
Autonomous Prefecture Regulation on Management of Tibetan Buddhist 
Monasteries [Diqing zangzu zizhizhou zangchuan fojiao siyuan guanli 
tiaoli], passed 14 April 09, approved 30 July 09, issued and effective 
1 September 09, art. 3 (no reference to socialism).
    \53\ See, e.g., State Administration for Religious Affairs, 
Management Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao 
simiao guanli banfa], passed 29 September 10, effective 1 November 10, 
arts. 4, 10(1); Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 4 September 09, issued and effective 24 September 09, 
arts. 4, 11(1); Hainan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Hainan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 8 July 09, issued and effective 31 July 09, arts. 4, 
11(1); Aba Tibetan and Qiang Autonomous Prefecture Temporary Measures 
on Management of Tibetan Buddhist Affairs [Aba zangzu qiangzu zizhizhou 
zangchuan fojiao shiwu guanli zanxing banfa], issued and effective 24 
July 09, arts. 17, 21; Diqing Tibetan Autonomous Prefecture Regulation 
on Management of Tibetan Buddhist Monasteries [Diqing zangzu zizhizhou 
zangchuan fojiao siyuan guanli tiaoli], passed 14 April 09, approved 30 
July 09, issued and effective 1 September 09, art. 3.
    \54\ ``Deepen the Struggle Against Separatist Activities and Make 
Further Efforts To Do Our Religious Work Well,'' Tibet Daily, 15 
February 96 (translated in Open Source Center, 15 February 96). The 
article states, ``The Buddhist association organizations formed in 
accordance with the constitution of the Buddhist Association of China 
are mass religious organizations composed of patriotic religious people 
which serve as a bridge and tie between the government and the broad 
masses of religious believers.'' Tibet Autonomous Region Temporary 
Measures on the Management of Religious Affairs [Xizangzizhiqu zongjiao 
shiwu guanli zanxing banfa], issued 9 December 91, effective 20 
December 91, art. 15. The measures state, ``The Buddhist Association is 
a . . . bridge for the Party and government to unite and educate 
personages from religious circles and the believing masses. Its 
effectiveness shall be vigorously brought into play under the 
administrative leadership of the government's religious affairs 
department.''
    \55\ See, e.g., State Administration for Religious Affairs, 
Management Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao 
simiao guanli banfa], passed 29 September 10, effective 1 November 10, 
art. 16; Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 4 September 09, issued and effective 24 September 09, 
arts. 26-27; Hainan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Hainan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 8 July 09, issued and effective 31 July 09, arts. 26-
27; Aba Tibetan and Qiang Autonomous Prefecture Temporary Measures on 
Management of Tibetan Buddhist Affairs [Aba zangzu qiangzu zizhizhou 
zangchuan fojiao shiwu guanli zanxing banfa], issued and effective 24 
July 09, arts. 19-20.
    \56\ See, e.g., State Administration for Religious Affairs, 
Management Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao 
simiao guanli banfa], passed 29 September 10, effective 1 November 10, 
art. 16; Aba Tibetan and Qiang Autonomous Prefecture Temporary Measures 
on Management of Tibetan Buddhist Affairs [Aba zangzu qiangzu zizhizhou 
zangchuan fojiao shiwu guanli zanxing banfa], issued and effective 24 
July 09, art. 10; Diqing Tibetan Autonomous Prefecture Regulation on 
Management of Tibetan Buddhist Monasteries [Diqing zangzu zizhizhou 
zangchuan fojiao siyuan guanli tiaoli], passed 14 April 09, approved 30 
July 09, issued and effective 1 September 09, art. 10.
    \57\ See, e.g., State Administration for Religious Affairs, 
Management Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao 
simiao guanli banfa], passed 29 September 10, effective 1 November 10, 
art. 4; Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 4 September 09, issued and effective 24 September 09, art. 
11(1); Hainan Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Hainan zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 8 July 09, issued and effective 31 July 09, art. 11(1); Aba 
Tibetan and Qiang Autonomous Prefecture Temporary Measures on 
Management of Tibetan Buddhist Affairs [Aba zangzu qiangzu zizhizhou 
zangchuan fojiao shiwu guanli zanxing banfa], issued and effective 24 
July 09, arts. 16, 17 (responsibility over DMC).
    \58\ See, e.g., State Administration for Religious Affairs, 
Management Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao 
simiao guanli banfa], passed 29 September 10, effective 1 November 10, 
arts. 8, 10, 11; Huangnan Tibetan Autonomous Prefecture Tibetan 
Buddhist Affairs Regulations [Huangnan zangzu zizhizhou zangchuan 
fojiao shiwu tiaoli], passed 4 September 09, issued and effective 24 
September 09, arts. 10, 19-20; Hainan Tibetan Autonomous Prefecture 
Tibetan Buddhist Affairs Regulations [Hainan zangzu zizhizhou zangchuan 
fojiao shiwu tiaoli], passed 8 July 09, issued and effective 31 July 
09, arts. 12-16; Aba Tibetan and Qiang Autonomous Prefecture Temporary 
Measures on Management of Tibetan Buddhist Affairs [Aba zangzu qiangzu 
zizhizhou zangchuan fojiao shiwu guanli zanxing banfa], issued and 
effective 24 July 09, arts. 16-18; Diqing Tibetan Autonomous Prefecture 
Regulation on Management of Tibetan Buddhist Monasteries [Diqing zangzu 
zizhizhou zangchuan fojiao siyuan guanli tiaoli], passed 14 April 09, 
approved 30 July 09, issued and effective 1 September 09, arts. 7-9.
    \59\ See, e.g., State Administration for Religious Affairs, 
Management Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao 
simiao guanli banfa], passed 29 September 10, effective 1 November 10, 
arts. 35-36 (implied); Huangnan Tibetan Autonomous Prefecture Tibetan 
Buddhist Affairs Regulations [Huangnan zangzu zizhizhou zangchuan 
fojiao shiwu tiaoli], passed 4 September 09, issued and effective 24 
September 09, arts. 7, 10(3), 20(7), 22; Hainan Tibetan Autonomous 
Prefecture Tibetan Buddhist Affairs Regulations [Hainan zangzu 
zizhizhou zangchuan fojiao shiwu tiaoli], passed 8 July 09, issued and 
effective 31 July 09, arts. 6-8, 10(4), 18; Aba Tibetan and Qiang 
Autonomous Prefecture Temporary Measures on Management of Tibetan 
Buddhist Affairs [Aba zangzu qiangzu zizhizhou zangchuan fojiao shiwu 
guanli zanxing banfa], issued and effective 24 July 09, arts. 4, 16, 18 
(no mention of village committee supervision of DMC); Diqing Tibetan 
Autonomous Prefecture Regulation on Management of Tibetan Buddhist 
Monasteries [Diqing zangzu zizhizhou zangchuan fojiao siyuan guanli 
tiaoli], passed 14 April 09, approved 30 July 09, issued and effective 
1 September 09, arts. 5, 7.
    \60\ State Administration for Religious Affairs, Measures on the 
Management of the Reincarnation of Living Buddhas in Tibetan Buddhism 
[Zangchuan fojiao huofo zhuanshi guanli banfa], passed 13 July 07, 
issued 18 July 07, effective 1 September 07. For more information on 
the measures, see CECC, 2007 Annual Report, Section IV--Tibet: Special 
Focus for 2007, 196-197; ``New Legal Measures Assert Unprecedented 
Control Over Tibetan Buddhist Reincarnation,'' Congressional-Executive 
Commission on China, 22 August 07.
    \61\ See, e.g., State Administration for Religious Affairs, 
Management Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao 
simiao guanli banfa], passed 29 September 10, effective 1 November 10, 
art. 20; Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 4 September 09, issued and effective 24 September 09, 
art. 10(4); Hainan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Hainan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 8 July 09, issued and effective 31 July 09, art. 7(6); 
Aba Tibetan and Qiang Autonomous Prefecture Temporary Measures on 
Management of Tibetan Buddhist Affairs [Aba zangzu qiangzu zizhizhou 
zangchuan fojiao shiwu guanli zanxing banfa], issued and effective 24 
July 09, art. 26; Diqing Tibetan Autonomous Prefecture Regulations on 
Management of Tibetan Buddhist Monasteries [Diqing zangzu zizhizhou 
zangchuan fojiao siyuan guanli tiaoli], passed 14 April 09, approved 30 
July 09, issued and effective 1 September 09, art. 18.
    \62\ See, e.g., State Administration for Religious Affairs, 
Management Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao 
simiao guanli banfa], passed 29 September 10, effective 1 November 10, 
arts. 15-17; Aba Tibetan and Qiang Autonomous Prefecture Temporary 
Measures on Management of Tibetan Buddhist Affairs [Aba zangzu qiangzu 
zizhizhou zangchuan fojiao shiwu guanli zanxing banfa], issued and 
effective 24 July 09, art. 10; Diqing Tibetan Autonomous Prefecture 
Regulation on Management of Tibetan Buddhist Monasteries [Diqing zangzu 
zizhizhou zangchuan fojiao siyuan guanli tiaoli], passed 14 April 09, 
approved 30 July 09, issued and effective 1 September 09, art. 10.
    \63\ See, e.g., State Administration for Religious Affairs, 
Management Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao 
simiao guanli banfa], passed 29 September 10, effective 1 November 10, 
arts. 9, 16-18, 21, 22, 25, 28-30, 33, 35, 40, 42; Huangnan Tibetan 
Autonomous Prefecture Tibetan Buddhist Affairs Regulations [Huangnan 
zangzu zizhizhou zangchuan fojiao shiwu tiaoli], passed 4 September 09, 
issued and effective 24 September 09, art. 7; Hainan Tibetan Autonomous 
Prefecture Tibetan Buddhist Affairs Regulations [Hainan zangzu 
zizhizhou zangchuan fojiao shiwu tiaoli], passed 8 July 09, issued and 
effective 31 July 09, arts. 3, 8; Aba Tibetan and Qiang Autonomous 
Prefecture Temporary Measures on Management of Tibetan Buddhist Affairs 
[Aba zangzu qiangzu zizhizhou zangchuan fojiao shiwu guanli zanxing 
banfa], issued and effective 24 July 09, arts. 4, 6; Diqing Tibetan 
Autonomous Prefecture Regulation on Management of Tibetan Buddhist 
Monasteries [Diqing zangzu zizhizhou zangchuan fojiao siyuan guanli 
tiaoli], passed 14 April 09, approved 30 July 09, issued and effective 
1 September 09, arts. 5-6.
    \64\ See, e.g., State Administration for Religious Affairs, 
Management Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao 
simiao guanli banfa], passed 29 September 10, effective 1 November 10, 
arts. 22, 28-29; Huangnan Tibetan Autonomous Prefecture Tibetan 
Buddhist Affairs Regulations [Huangnan zangzu zizhizhou zangchuan 
fojiao shiwu tiaoli], passed 4 September 09, issued and effective 24 
September 09, art. 31; Aba Tibetan and Qiang Autonomous Prefecture 
Temporary Measures on Management of Tibetan Buddhist Affairs [Aba 
zangzu qiangzu zizhizhou zangchuan fojiao shiwu guanli zanxing banfa], 
issued and effective 24 July 09, art. 23; Diqing Tibetan Autonomous 
Prefecture Regulation on Management of Tibetan Buddhist Monasteries 
[Diqing zangzu zizhizhou zangchuan fojiao siyuan guanli tiaoli], passed 
14 April 09, approved 30 July 09, issued and effective 1 September 09, 
art. 14.
    \65\ State Administration for Religious Affairs, Management 
Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao simiao 
guanli banfa], passed 29 September 10, effective 1 November 10, arts. 
22, 28-29. For more information on monastic travel requirements under 
previous regulatory measures, see Tibet Autonomous Region Implementing 
Measures for the ``Regulations on Religious Affairs'' (Trial Measures) 
[Xizang zizhiqu shishi ``zongjiao shiwu tiaoli'' banfa (shixing)], 
issued 19 September 06, effective 1 January 07, arts. 41, 43; Tibet 
Autonomous Region Temporary Measures on the Management of Religious 
Affairs, issued by the Standing Committee of the Tibet Autonomous 
Region People's Government on December 9, 1991, art. 9; CECC, 2007 
Annual Report, 10 October 10, 194-195.
    \66\ Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 4 September 09, issued and effective 24 September 09, 
arts. 7(2), 22(1-3), 23(6), 37; Hainan Tibetan Autonomous Prefecture 
Tibetan Buddhist Affairs Regulations [Hainan zangzu zizhizhou zangchuan 
fojiao shiwu tiaoli], passed 8 July 09, issued and effective 31 July 
09, arts. 8(1), 9, 13, 19, 21(3), 24(1,3); Haibei Tibetan Autonomous 
Prefecture Tibetan Buddhist Affairs Regulations [Haibei zangzu 
zizhizhou zangchuan fojiao shiwu tiaoli], passed 12 January 10, 
approved 18 March 10, issued and effective 22 March 10, arts. 11(1), 
12, 26, 39, 43, 45(3); Guoluo Tibetan Autonomous Prefecture Tibetan 
Buddhist Affairs Regulations [Guoluo zangzu zizhizhou zangchuan fojiao 
shiwu tiaoli], passed 22 March 10, issued and effective 30 September 
10, arts. 6, 7, 12(3), 15, 16, 18-19, 31; Haixi Mongol and Tibetan 
Autonomous Prefecture Tibetan Buddhist Affairs Regulations [Haixi 
mengguzu zangzu zizhizhou zangchuan fojiao shiwu tiaoli], passed 8 
March 10, approved 27 May 10, issued and effective 3 June 10, arts. 8, 
9, 13(2), 15, 17(2), 22, 25.
    \67\ Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 4 September 09, issued and effective 24 September 09, 
art. 7(2); Hainan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Hainan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 8 July 09, issued and effective 31 July 09, art. 8(1); 
Haibei Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Haibei zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 12 January 10, approved 18 March 10, issued and effective 22 
March 10, art. 11(1); Haixi Mongol and Tibetan Autonomous Prefecture 
Tibetan Buddhist Affairs Regulations [Haixi mengguzu zangzu zizhizhou 
zangchuan fojiao shiwu tiaoli], passed 8 March 10, approved 27 May 10, 
issued and effective 3 June 10, art. 8.
    \68\ The statement is based on information obtained on the Web site 
of Harry's World Atlas in January 2011 and represented as current in 
early 2007.
    \69\ Five of the seven measures for which text was available online 
as of August 2011 provide for a greater role for village committees 
than the TAR Implementing Measures for the Regulations on Religious 
Affairs issued in September 2006; two prefectural measures (Diqing and 
Haixi) contain language similar to the TAR measures. See, e.g., Tibet 
Autonomous Region Implementing Measures for the ``Regulations on 
Religious Affairs'' (Trial Measures) [Xizang zizhiqu shishi ``zongjiao 
shiwu tiaoli'' banfa (shixing)], issued 19 September 06, effective 1 
January 07, art. 7; State Administration for Religious Affairs, 
Management Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao 
simiao guanli banfa], passed 29 September 10, effective 1 November 10, 
arts. 8, 11(2-3), 36; Huangnan Tibetan Autonomous Prefecture Tibetan 
Buddhist Affairs Regulations [Huangnan zangzu zizhizhou zangchuan 
fojiao shiwu tiaoli], passed 4 September 09, issued and effective 24 
September 09, arts. 19, 22-23; Hainan Tibetan Autonomous Prefecture 
Tibetan Buddhist Affairs Regulations [Hainan zangzu zizhizhou zangchuan 
fojiao shiwu tiaoli], passed 8 July 09, issued and effective 31 July 
09, arts. 19-21; Haibei Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Haibei zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 12 January 10, approved 18 March 10, issued and 
effective 22 March 10, arts. 12, 43-45; Guoluo Tibetan Autonomous 
Prefecture Tibetan Buddhist Affairs Regulations [Guoluo zangzu 
zizhizhou zangchuan fojiao shiwu tiaoli], passed 22 March 10, issued 
and effective 30 September 10, arts. 18, 31; Haixi Mongol and Tibetan 
Autonomous Prefecture Tibetan Buddhist Affairs Regulations [Haixi 
mengguzu zangzu zizhizhou zangchuan fojiao shiwu tiaoli], passed 8 
March 10, approved 27 May 10, issued and effective 3 June 10, art. 9; 
Aba Tibetan and Qiang Autonomous Prefecture Temporary Measures on 
Management of Tibetan Buddhist Affairs [Aba zangzu qiangzu zizhizhou 
zangchuan fojiao shiwu guanli zanxing banfa], issued and effective 24 
July 09, arts. 20, 21(2); Diqing Tibetan Autonomous Prefecture 
Regulation on Management of Tibetan Buddhist Monasteries [Diqing zangzu 
zizhizhou zangchuan fojiao siyuan guanli tiaoli], passed 14 April 09, 
approved 30 July 09, issued and effective 1 September 09, art. 5(2).
    \70\ Aba Tibetan and Qiang Autonomous Prefecture Temporary Measures 
on Management of Tibetan Buddhist Affairs [Aba zangzu qiangzu zizhizhou 
zangchuan fojiao shiwu guanli zanxing banfa], issued and effective 24 
July 09, arts. 20, 21(2).
    \71\ State Administration for Religious Affairs, Management 
Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao simiao 
guanli banfa], passed 29 September 10, effective 1 November 10, art. 8,
    \72\ Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 4 September 09, issued and effective 24 September 09, 
arts. 22-23; Hainan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Hainan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 8 July 09, issued and effective 31 July 09, arts. 18-
21; Haibei Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Haibei zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 12 January 10, approved 18 March 10, issued and effective 22 
March 10, arts. 11(3), 35, 42(9), 43-45; Guoluo Tibetan Autonomous 
Prefecture Tibetan Buddhist Affairs Regulations [Guoluo zangzu 
zizhizhou zangchuan fojiao shiwu tiaoli], passed 22 March 10, issued 
and effective 30 September 10, arts. 7(5), 17-19; Haixi Mongol and 
Tibetan Autonomous Prefecture Tibetan Buddhist Affairs Regulations 
[Haixi mengguzu zangzu zizhizhou zangchuan fojiao shiwu tiaoli], passed 
8 March 10, approved 27 May 10, issued and effective 3 June 10, art. 
17.
    \73\ CECC Staff Analysis.
    \74\ Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 4 September 09, issued and effective 24 September 09, 
art. 22; Hainan Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Hainan zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 8 July 09, issued and effective 31 July 09, art. 19; Haibei 
Tibetan Autonomous Prefecture Tibetan Buddhist Affairs Regulations 
[Haibei zangzu zizhizhou zangchuan fojiao shiwu tiaoli], passed 12 
January 10, approved 18 March 10, issued and effective 22 March 10, 
art. 43; Guoluo Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Guoluo zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 22 March 10, issued and effective 30 September 10, art. 18; 
Haixi Mongol and Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Haixi mengguzu zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 8 March 10, approved 27 May 10, issued and effective 3 
June 10, art. 17.
    \75\ Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 4 September 09, issued and effective 24 September 09, 
art. 23; Hainan Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Hainan zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 8 July 09, issued and effective 31 July 09, art. 20-21; Haibei 
Tibetan Autonomous Prefecture Tibetan Buddhist Affairs Regulations 
[Haibei zangzu zizhizhou zangchuan fojiao shiwu tiaoli], passed 12 
January 10, approved 18 March 10, issued and effective 22 March 10, 
arts. 44-45; Guoluo Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Guoluo zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 22 March 10, issued and effective 30 September 10, 
arts. 17, 19 (do not list specific responsibilities); Haixi Mongol and 
Tibetan Autonomous Prefecture Tibetan Buddhist Affairs Regulations 
[Haixi mengguzu zangzu zizhizhou zangchuan fojiao shiwu tiaoli], passed 
8 March 10, approved 27 May 10, issued and effective 3 June 10, art. 17 
(does not list specific responsibilities).
    \76\ Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 4 September 09, issued and effective 24 September 09, 
art. 23(6); Hainan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Hainan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 8 July 09, issued and effective 31 July 09, art. 21(3); 
Haibei Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Haibei zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 12 January 10, approved 18 March 10, issued and effective 22 
March 10, art. 44(5); Guoluo Tibetan Autonomous Prefecture Tibetan 
Buddhist Affairs Regulations [Guoluo zangzu zizhizhou zangchuan fojiao 
shiwu tiaoli], passed 22 March 10, issued and effective 30 September 
10, art. 19; Haixi Mongol and Tibetan Autonomous Prefecture Tibetan 
Buddhist Affairs Regulations [Haixi mengguzu zangzu zizhizhou zangchuan 
fojiao shiwu tiaoli], passed 8 March 10, approved 27 May 10, issued and 
effective 3 June 10, art. 17 (does not detail reporting requirements).
    \77\ Commission Staff Analysis. For more detailed information on 
provisions that provide criminal or administrative punishment in the 
prefectural regulatory measures, see ``Tibetan Buddhist Affairs 
Regulations Taking Effect in Tibetan Autonomous Prefectures,'' 
Congressional-Executive Commission on China, 10 March 11, Table 2 
titled Tibetan Buddhist Affairs Regulatory Measures: Selected Areas of 
Requirement, Prohibition, Control. According to the table, ``DMC 
members, teachers, trulkus, monks and nuns may face administrative or 
criminal punishment for activity characterized as . . . .''
    \78\ Commission Staff Analysis. See Hainan Tibetan Autonomous 
Prefecture Tibetan Buddhist Affairs Regulations [Hainan zangzu 
zizhizhou zangchuan fojiao shiwu tiaoli], passed 8 July 09, issued and 
effective 31 July 09, arts. 39-45; Guoluo Tibetan Autonomous Prefecture 
Tibetan Buddhist Affairs Regulations [Guoluo zangzu zizhizhou zangchuan 
fojiao shiwu tiaoli], passed 22 March 10, issued and effective 30 
September 10, arts. 45-50; Aba Tibetan and Qiang Autonomous Prefecture 
Temporary Measures on Management of Tibetan Buddhist Affairs [Aba 
zangzu qiangzu zizhizhou zangchuan fojiao shiwu guanli zanxing banfa], 
issued and effective 24 July 09, arts. 34-41.
    \79\ Commission Staff Analysis. See Haibei Tibetan Autonomous 
Prefecture Tibetan Buddhist Affairs Regulations [Haibei zangzu 
zizhizhou zangchuan fojiao shiwu tiaoli], passed 12 January 10, 
approved 18 March 10, issued and effective 22 March 10, arts. 46-50; 
Haixi Mongol and Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Haixi mengguzu zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 8 March 10, approved 27 May 10, issued and effective 3 
June 10, art. 27 (no chapter on ``legal liability'' (falu zeren)); 
Diqing Tibetan Autonomous Prefecture Regulation on Management of 
Tibetan Buddhist Monasteries [Diqing zangzu zizhizhou zangchuan fojiao 
siyuan guanli tiaoli], passed 14 April 09, approved 30 July 09, issued 
and effective 1 September 09, arts. 24-26, 28 (no chapter on ``legal 
liability'' (falu zeren)).
    \80\ Commission Staff Analysis. See Huangnan Tibetan Autonomous 
Prefecture Tibetan Buddhist Affairs Regulations [Huangnan zangzu 
zizhizhou zangchuan fojiao shiwu tiaoli], passed 4 September 09, issued 
and effective 24 September 09, arts. 43-47.
    \81\ The Commission's Political Prisoner Database (PPD) data on 
Tibetan political detention and imprisonment during the period 
beginning on March 10, 2008, is certain to be far from complete. 
``Tibetan Buddhist Affairs Regulations Taking Effect in Tibetan 
Autonomous Prefectures,'' Congressional-Executive Commission on China, 
10 March 11, Table 3. Based on PPD information as of February 11, 2011, 
the following numbers of Tibetan Buddhist monks, nuns, and teachers 
were detained on or after March 10, 2008, in prefectures with more 
extensive descriptions of punishable offenses--Hainan TAP (12), Guoluo 
TAP (18), and Aba T&QAP (57); in a prefecture with mid-range 
extensiveness of descriptions of punishable offenses--Huangnan TAP (3); 
and in prefectures with less extensive descriptions of punishable 
offenses--Haibei TAP (0), Haixi M&TAP (0), and Diqing TAP (0).
    \82\ Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 4 September 09, issued and effective 24 September 09, 
art. 48; Haibei Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Haibei zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 12 January 10, approved 18 March 10, issued and effective 22 
March 10, art. 51; Guoluo Tibetan Autonomous Prefecture Tibetan 
Buddhist Affairs Regulations [Guoluo zangzu zizhizhou zangchuan fojiao 
shiwu tiaoli], passed 22 March 10, issued and effective 30 September 
10, art. 51; Diqing Tibetan Autonomous Prefecture Regulation on 
Management of Tibetan Buddhist Monasteries [Diqing zangzu zizhizhou 
zangchuan fojiao siyuan guanli tiaoli], passed 14 April 09, approved 30 
July 09, issued and effective 1 September 09, art. 27.
    \83\ PRC Administrative Reconsideration Law [Zhonghua renmin gonghe 
guo xingzheng fuyi fa], issued 29 April 99, effective 1 October 99.
    \84\ PRC Administrative Litigation Law [Zhonghua renmin gonghe guo 
xingzheng sufa fa], issued 4 April 89, effective 1 October 90.
    \85\ Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 4 September 09, issued and effective 24 September 09, 
art. 48; Haibei Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Haibei zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 12 January 10, approved 18 March 10, issued and effective 22 
March 10, art. 51; Guoluo Tibetan Autonomous Prefecture Tibetan 
Buddhist Affairs Regulations [Guoluo zangzu zizhizhou zangchuan fojiao 
shiwu tiaoli], passed 22 March 10, issued and effective 30 September 
10, art. 51.
    \86\ As of September 1, 2011, the Commission's Political Prisoner 
Database (PPD) contained 576 records of political or religious 
detention of Tibetans in 2008; 220 records in 2009; 113 records in 
2010; and 225 records in 2011. PPD information on Tibetan political 
detentions in and after March 2008 is certain to be far from complete. 
The increase in 2011 is due mainly to the coerced removal of monks from 
Kirti Monastery in April 2011 for de facto detention at undisclosed 
sites for ``legal education.'' For additional information on the Kirti 
detentions, see ``After Monk's Suicide: Coerced Removal and `Education' 
for Monks; Possible Murder Charges,'' Congressional-Executive 
Commission on China, 17 August 11.
    \87\ Kalsang Rinchen, ``4 Tibetans Arrested Over 2 Books in Ngaba, 
Author Escapes,'' Phayul, 6 March 11.
    \88\ Ibid.
    \89\ Hongyuan county is also known by the Tibetan names Kakhog, 
Khyungchu, and Mewa.
    \90\ Kalsang Rinchen, ``4 Tibetans Arrested Over 2 Books in Ngaba, 
Author Escapes,'' Phayul, 6 March 11; Cornelius Lundsgaard and Pema 
Tso, ``China Arrests Four Tibetans Including Two Writers Over 2 
Books,'' Tibet Post, 19 March 11.
    \91\ ``Police Crack Down on Banned Songs,'' Radio Free Asia, 25 
February 11.
    \92\ Ibid. The RFA report did not identify the location(s) in the 
TAR where the detentions took place or identify any of the Tibetans 
detained.
    \93\ ``Tibetan Writers Sentenced,'' Radio Free Asia, 31 December 
10.
    \94\ International Campaign for Tibet, ``Three More Tibetan Writers 
Sentenced to Prison,'' 21 January 11; ``Tibetan Writers Sentenced,'' 
Radio Free Asia, 31 December 10; International Campaign for Tibet, 
``Three Tibetan Writers on Trial Await Verdict,'' 5 November 10; 
``Tibetan Writers Tried as `Splittists,' '' Radio Free Asia, 5 November 
10.
    \95\ ``Tibetan Author of Banned Video Released, Slapped 
Conditions,'' Phayul, 18 October 10 (released on October 15, 2010, on 
conditions described in a manner that indicates bail following 
detention on July 27, 2010); Tibetan Centre for Human Rights and 
Democracy, ``Takmig Arrested Again,'' 4 February 11 (redetention on 
December 16, 2010).
    \96\ Tibetan Centre for Human Rights and Democracy, ``Takmig 
Arrested Again,'' 4 February 11 (redetention on December 16, 2010).
    \97\ ``Tibetan Author of Banned Video Released, Slapped 
Conditions,'' Phayul, 18 October 10 (release October 15, 2010, on 
conditions described in a manner that indicate bail following detention 
on July 27, 2010); Tibetan Centre for Human Rights and Democracy, ``One 
More Tibetan Intellectual Arrested'' 22 August 10 (2,500 VCDs); 
International Campaign for Tibet, ``Tibetan Monk Makes Video Appeal for 
Return of Dalai Lama and End to Repression in Tibet,'' 28 August 09 
(translation of VCD statement).
    \98\ Kalsang Rinchen, ``Tibetan Monk Writer From Palbar Arrested in 
Lhasa,'' Phayul, 11 January 11 (refers to events as ``debates''); Y.C. 
Dhardhowa, ``China Detains a Tibetan Writer in Lhasa, Capital of 
Tibet,'' Tibet Post, 11 January 11 (refers to events as 
``conferences'').
    \99\ Kalsang Rinchen, ``Tibetan Monk Writer From Palbar Arrested in 
Lhasa,'' Phayul, 11 January 11.
    \100\ ``A Lhasa Singer's Newly Published CD Accused of Political 
Problems, Arrest Warrant Issued'' [Yi lasa geshou chuban xin guangdie 
beikong she zheng zao tongji], Boxun, 24 September 10. The Boxun report 
cites a Voice of Tibet broadcast (likely the same date or one day 
earlier) that describes the police activity, including the issue of the 
arrest warrant (jubu ling) and banning of the CD as taking place ``in 
recent days.''
    \101\ Ibid.
    \102\ Ibid.
    \103\ Ibid.
    \104\ Kalsang Rinchen, ``Ngaba Monk Immolates Self To Mark 3 Years 
Since Bloody Crackdown,'' Phayul, 16 March 11.
    \105\ International Campaign for Tibet, ``Monk Immolates Himself; 
Major Protests at Tibetan Monastery Violently Suppressed,'' 16 March 
11; Kalsang Rinchen, ``Ngaba Monk Immolates Self To Mark 3 Years Since 
Bloody Crackdown,'' Phayul, 16 March 11; ``After Monk's Suicide: 
Coerced Removal and `Education' for Monks; Possible Murder Charges,'' 
Congressional-Executive Commission on China, 17 August 11.
    \106\ International Campaign for Tibet, ``Chinese Authorities 
Confirm Death of Monk After Self-Immolation; Military Crackdown at 
Kirti,'' 17 March 11.
    \107\ Ibid.; ``Protest Monk Dies,'' Radio Free Asia, 17 March 11; 
Kalsang Rinchen, ``Monk Who Set Ablaze Self Dead, 7 Kirti Monks 
Released, Several Still Held,'' 17 March 11.
    \108\ ``Monks Face New Restrictions,'' Radio Free Asia, 22 March 11 
(``On [March 21] . . . a program of political reeducation called 
`Patriotic Religion' was launched . . .''); Kalsang Rinchen, ``3 Youth 
Among Arrested as China Goes on Arrest Drive in Ngaba County,'' Phayul, 
24 March 11 (``the patriotic reeducation campaign at Ngaba Kirti 
monastery that started on Monday [March 21] is underway . . .''); 
International Campaign for Tibet, ``Protests, Tensions Escalate in 
Ngaba Following Self-Immolation of Monk: Kirti Monastery Under 
Lockdown,'' 11 April 11 (``a rigorous `patriotic education' campaign is 
being enforced''); ``After Monk's Suicide: Coerced Removal and 
`Education' for Monks; Possible Murder Charges,'' Congressional-
Executive Commission on China, 17 August 11.
    \109\ ``Kirti Monks Forcibly Removed,'' Radio Free Asia, 22 April 
11 (``Local Tibetans . . . heard that the detained monks were then 
taken to [Wenchuan (Lunggu), Mao (Maowun), and Li (Tashiling) counties 
in Aba (Ngaba) Tibetan and Qiang Autonomous Prefecture]''); Kalsang 
Rinchen, ``2 Beaten to Death in Ngaba, 300 Kirti Monks Arrested,'' 
Phayul, 22 April 11; International Campaign for Tibet, ``Two Elderly 
Tibetans Killed as Hundreds of Monks Detained From Kirti; Crackdown 
Deepens,'' 22 April 11; ``After Monk's Suicide: Coerced Removal and 
`Education' for Monks; Possible Murder Charges,'' Congressional-
Executive Commission on China, 17 August 11.
    \110\ International Campaign for Tibet, ``Two Elderly Tibetans 
Killed as Hundreds of Monks Detained From Kirti; Crackdown Deepens,'' 
22 April 11 (``[people] had their arms and legs broken''; ``The two 
people who died . . . were Dongko (male) . . . aged 60, and 65-year old 
Sherkyi (female).''); ``Kirti Monks Forcibly Removed,'' Radio Free 
Asia, 22 April 11 (``Chinese armed police then attacked the crowd, 
beating some and gagging others . . .; A 60-year-old man named Donkho . 
. . and a 65-year-old woman named Sherkyi . . . were killed, and others 
suffered broken arms and legs in the attack.''); International Campaign 
for Tibet, ``Ngaba Students Protest Crackdown, Authorities Respond; New 
Information on Deaths of Tibetans Who Tried To Protect Monks,'' 9 May 
11; ``After Monk's Suicide: Coerced Removal and `Education' for Monks; 
Possible Murder Charges,'' Congressional-Executive Commission on China, 
17 August 11.
    \111\ ``1st Ld-Writethru: Tibetan Monk Jailed 11 Years For Murder 
in Self-Immolation Case,'' Xinhua, 29 August 11, reprinted in China 
Daily. According to the report, on August 29, 2011, the Ma'erkang 
[Barkham] County People's Court sentenced Kirti monk ``Drongdru'' to 11 
years' imprisonment ``because he hid the injured monk and prevented 
emergency treatment.'' ``Two Tibetan Monks Sentenced in Murder Case,'' 
Xinhua, 31 August 11, reprinted in China Daily. According to the 
report, on August 30, 2011, the Ma'erkang [Barkham] County People's 
Court sentenced Kirti monks ``Tsering Tenzin'' and ``Tenchum'' to 13 
years' and 10 years' imprisonment respectively. PRC Criminal Law 
[Zhonghua renmin gongheguo xingfa], enacted 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, art. 232: ``Whoever intentionally commits homicide shall be 
sentenced to death, life imprisonment or fixed-term imprisonment of not 
less than 10 years; if the circumstances are relatively minor, he shall 
be sentenced to fixed-term imprisonment of not less than three years 
but not more than 10 years.''
    \112\ ``Tibet Protest March Attacked,'' Radio Free Asia, 16 March 
11. According to an RFA source, ``Chinese police and security people 
present in the area immediately came to the scene and kicked and beat 
him as they extinguished the flames. Local Tibetans and Kirti monks 
came to his rescue and took Phuntsog back to the monastery.'' ``Ngaba 
Monk Immolates Self To Mark 3 Years Since Bloody Crackdown,'' Phayul, 
16 March 11. According to the report, ``As the police were trying to 
take him away in a waiting police van scores of Tibetans rushed to the 
scene and protected Phuntsok.'' International Campaign for Tibet, 
``Protests, Tensions Escalate in Ngaba Following Self-Immolation of 
Monk: Kirti Monastery Under Lockdown,'' 11 April 11. According to the 
ICT report, ``At that point, Kirti monks intervened and sheltered him 
at the monastery before ensuring he received medical treatment at 
hospital, . . . .''
    \113\ Free Tibet Campaign, ``Monk Dies After Setting Himself on 
Fire in Protest in Tibet,'' 15 August 11 (``Nyitso Monastery''); 
``Tibetan Monk Sets Himself Ablaze,'' Radio Free Asia, 15 August 11 
(``Nyatso Monastery''); ``Monk Sets Himself on Fire in SW China,'' 
Xinhua, 15 August 11, reprinted in China Internet Information Center.
    \114\ Accurate, comprehensive, and independently verified 
information on the views of Tibetans living in China is not available.
    \115\ Department of Population, Social, Science and Technology 
Statistics, National Bureau of Statistics et al., Tabulation on 
Nationalities of 2000 Population Census of China (Beijing: Ethnic 
Publishing House, 2003). Based on 2000 census data, 87.2 percent of 
Tibetans were classified as ``rural'' population: Table 1-2 shows the 
total Tibetan population in 2000 as 5,416,021; Table 1-2a shows the 
``city'' population of Tibetans in 2000 as 221,355; Table 1-2b shows 
the ``town'' population of Tibetans in 2000 as 473,467; Table 1-2c 
shows the ``rural'' population of Tibetans in 2000 as 4,721,199. Based 
on information in Table 1-5, the percentage of rural Tibetans could be 
even higher: Of the total 5,416,021 Tibetan population, 5,373,339 
Tibetans were classified as either ``agricultural'' (4,792,676) or 
``non-agricultural'' (580,663). Based on those figures, the 4,792,676 
Tibetans classified as ``agricultural'' made up 88.5 percent of the 
5,416,021 total Tibetan population.
    \116\ For previous Commission reporting addressing the issues of 
Tibetan literacy and the status of the Tibetan language, see, e.g., 
CECC, 2007 Annual Report, 10 October 07, 202; CECC, 2005 Annual Report, 
11 October 05, 108-9; Teaching and Learning Tibetan: The Role of the 
Tibetan Language in Tibet's Future, Staff Roundtable of the 
Congressional-Executive Commission on China, 7 April 03, Testimony of 
Nicolas Tournadre, Associate Professor of Linguistics, University of 
Paris 8, Paris; Testimony of David Germano, Professor of Tibetan and 
Buddhist Studies, University of Virginia; Testimony of Losang Rabgey, 
Commonwealth Scholar and Ph.D. Candidate, School of Oriental and 
African Studies, University of London.
    \117\ China's Constitution and the PRC Regional Ethnic Autonomy Law 
provide nominal protection for the use of minority languages. See, 
e.g., PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 93, 15 March 99, 14 March 04, arts. 4, 121; PRC Regional Ethnic 
Autonomy Law (REAL) [Zhonghua renmin gongheguo minzu quyu zizhifa], 
issued 31 May 84, effective 1 October 84, amended and effective 28 
February 01, arts. 10, 21, 37. The State Council Provisions on 
Implementing the PRC Regional Ethnic Autonomy Law affirm the freedom to 
use and develop minority languages, but also place emphasis on the use 
of Mandarin by promoting ``bilingual'' education and bilingual teaching 
staff. State Council Provisions on Implementing the PRC Regional Ethnic 
Autonomy Law [Guowuyuan shishi ``zhonghua renmin gongheguo minzu quyu 
zizhifa'' ruogan guiding], issued 19 May 05, effective 31 May 05, art. 
22.
    \118\ ``It Is in the Fundamental Interests of the Tibetan People in 
Our Province To Strengthen and Reform `Bilingual' Education,'' Qinghai 
Daily, 29 October 10 (translated in Open Source Center, 3 November 10); 
``NW China Province Clarifies Purpose of Bilingual Education Reform,'' 
Xinhua, 23 October 10; Xue Jun, ``Provincial Party Committee Convenes 
Telephone and Videoconference of Leading Cadres Province Wide, Qiang 
Wei Delivers Important Speech'' [Sheng wei zhaokai quansheng lingdao 
ganbu dianshi dianhua huiyi qiangwei zuo zhongyao jianghua], Qinghai 
Daily, 28 October 10 (translated in Open Source Center, 1 November 10); 
Zhi Zhenpu, ``Qinghai Province Party Secretary Qiang Wei: Make `Bi-
lingual' Education a Livelihood Project'' [Qinghai sheng wei shuji 
qiang wei: ba ``shuang yu'' jiaoyu zuowei minsheng gongcheng], People's 
Daily, 30 September 10, reprinted in Phoenix Net.
    \119\ ``Leading Cadres Convene Forum To Study and Implement the 
Spirit of the Province-Wide Conference on Education'' [Lingdao ganbu 
xuexi guanche quansheng jiaoyu dahui jingshen zuotanhui zhaokai], 
Qinghai Daily, 27 October 10 (translated in Open Source Center, 8 
November 10) (ethnic languages are for use in ``one's home location'' 
and in ``courses of study to carry ethnic culture forward''; Chinese 
language is for use in ``public places''; non-ethnic languages (e.g., 
Chinese, English) are for ``scientific learning such as mathematics, 
physics, and chemistry''); ``Qinghai Provincial Department of Education 
Leader Explains `Qinghai Province Mid- and Long-Term Plan for 
Educational Reform and Development (2010-2020)' '' [Qinghai sheng 
jiaoyu ting fuzeren jiedu ``qinghai sheng zhong changqi jiaoyu gaige he 
fazhan guihua gangyao (2010-2020)''], Qinghai News Agency, 22 October 
10 (translated in Open Source Center, 6 November 10) (the role of 
Chinese language: ``adhere to mainly teaching with the state's standard 
spoken and written language [Mandarin]''; role of ethnic language is 
not identified: ``learn spoken and written ethnic languages'').
    \120\ ``Students Protest Language Change,'' Radio Free Asia, 19 
October 10 (October 19 protest in Tongren (Rebgong), capital of 
Huangnan (Malho) TAP, involved students from six secondary- and 
tertiary-level schools; estimates ranged from 1,000 to 7,000 students); 
``Tibet Students Protests Spread,'' Radio Free Asia, 20 October 10 
(October 20 protests included ``more than 2,000'' middle school 
students in Zeku (Tsekhog), Huangnan TAP, and a total of about 6,000 
secondary- and tertiary-level students in Gonghe (Chabcha), capital of 
Hainan (Tsolho) TAP); Barbara Demick, ``Tibetan Student Protests Reach 
Beijing,'' Los Angeles Times, 23 October 10 (200 to 300 students 
protested on October 22 at the Central University for Minorities in 
Beijing); ``Language Protests Spread to Beijing,'' Radio Free Asia, 22 
October 10 (``some 400'' Tibetan students protested on October 22 at 
the National Minorities University in Beijing); ``20 Tibetan Students 
Detained, Protests Over Language Continue in Tibet,'' Phayul, 25 
October 10 (``thousands'' of students reportedly protested on Sunday, 
October 24, in the seat of Jianza (Chentsa) county, Huangnan TAP; the 
report also mentions student protest in the days prior to the report in 
Guide (Trika) county, Hainan TAP, and in Guoluo (Golog) TAP, Qinghai 
province).
    \121\ ``Opinions on Mid- and Long-Term Reform of the Use of 
Bilingual Tibetan-Chinese Language in Qinghai Province'' [Guanyu 
qinghai sheng zang han shuangyu zhong changqi gaige wenti de yijian], 
Sohu blog, 24 October 10 (translated in Open Source Center, 7 November 
10). ``The Qinghai Education Department and [Director] Wang Yubo openly 
restricted the freedom of study, use, and development of ethnic 
minority languages in schools, which totally violates the Constitution, 
the [REAL], . . . the Education Law, and the Law for the State's 
Commonly Used Language.'' See also PRC Regional Ethnic Autonomy Law 
[Zhonghua renmin gonghe guo minzu quyu zizhi fa], issued 31 May 84, 
effective 1 October 84, amended and effective 28 February 01.
    \122\ CECC Staff Analysis. Official reports acknowledged the 
protests but did not allege planning or organization. Participation of 
large numbers of students across a wide area in the protests without 
planning or organization would depend on widespread student 
predisposition to join protests. Such predisposition would depend on a 
significant level of dissatisfaction.
    \123\ CECC Staff Analysis. Based on the relative consistency of 
government and Party policy on Tibetan education as well as on the 
relative consistency of the Tibetan people's wish to maintain their 
language and culture, teachers' and students' views in Qinghai province 
are likely to be similar to such views in the Tibet Autonomous Region 
and Gansu, Sichuan, and Yunnan provinces.
    \124\ In Qinghai province, Tibetan-language primary and middle 
schools are located in five Tibetan autonomous prefectures (Haibei 
(Tsojang), Hainan (Tsolho), Huangnan (Malho), Guoluo (Golog), and Yushu 
(Yulshul)), and in one Mongol and Tibetan autonomous prefecture (Haixi 
(Tsonub)).
    \125\ International Campaign for Tibet, ``Tibetan Teachers Write 
Petition in Support of Tibetan Language; Fears for Students After 
Detentions,'' 26 October 10. According to the article, the training 
took place in Tongren (Rebgong), the capital of Huangnan (Malho) 
Tibetan Autonomous Prefecture.
    \126\ See Jia Xiaoyun, ``Qinghai Provincial Department of Education 
Leader Explains `Qinghai Province Mid- and Long-Term Plan for 
Educational Reform and Development (2010-2020)' '' [Qinghai sheng 
jiaoyu ting fuzeren jiedu ``Qinghai sheng zhong changqi jiaoyu gaige he 
fazhan guihua gangyao (2010-2020)''], Qinghai News Agency, 22 October 
10 (translated in Open Source Center, 6 November 10).
    \127\ International Campaign for Tibet, ``Tibetan Teachers Write 
Petition in Support of Tibetan Language; Fears for Students After 
Detentions,'' 26 October 10.
    \128\ Ibid.
    \129\ ``Students Protest Language Change,'' Radio Free Asia, 19 
October 10 (the six schools in Tongren were the First Nationalities 
Middle School, the Tongren County Yifu Nationalities Middle School, the 
Tongren District Residential School, the Tongren Modern Medicine 
College, the Huangnan National Teacher Training Institute, and the 
Huangnan Nationalities Middle School); Free Tibet Campaign, ``Students 
Protest for Language Rights,'' 22 October 10.
    \130\ ``Students Protest Language Change,'' Radio Free Asia, 19 
October 10.
    \131\ Ibid.
    \132\ Free Tibet Campaign, ``Students Protest for Language 
Rights,'' 22 October 10. The article provided a translation of the 
apparently Chinese-language text message: ``Yesterday, the Ministry of 
Education decided that, Tibetan language centered education system 
should be canceled [in] all the schools in Tibetan areas. The Tibetan 
language above primary school is set as an optional subject. Tibetan 
students are protesting for their mother-tongue in the Tibetan areas in 
Qinghai and others. For the sake of saving the Tibetan mother-tongue, 
please pass the message to each other.''
    \133\ Zhi Zhenpu, ``Qinghai Province Party Secretary Qiang Wei: 
Make `Bi-lingual' Education a Livelihood Project'' [Qinghai sheng wei 
shuji qiang wei: ba ``shuang yu'' jiaoyu zuowei minsheng gongcheng], 
People's Daily, 30 September 10, reprinted in Phoenix Net.
    \134\ ``Tibet Student Protests Spread,'' Radio Free Asia, 20 
October 10 (October 20 protests included ``more than 2,000'' middle 
school students in Zeku (Tsekhog), Huangnan TAP; a total of about 6,000 
secondary- and tertiary-level students in Gonghe (Chabcha), capital of 
Hainan (Tsolho) TAP); Barbara Demick, ``Tibetan Student Protests Reach 
Beijing,'' Los Angeles Times, 23 October 10 (200 to 300 students 
protested at Beijing's Central University for Minorities); ``Language 
Protests Spread to Beijing,'' Radio Free Asia, 22 October 10 (``some 
400'' Tibetan students protested at the Beijing National Minorities 
University); ``20 Tibetan Students Detained, Protests Over Language 
Continue in Tibet,'' Phayul, 25 October 10 (``thousands'' of students 
reportedly protested on Sunday, October 24, in the seat of Jianza 
(Chentsa) county, Huangnan TAP; the report also mentions student 
protest in the days prior to the report in Guide (Trika) county, Hainan 
TAP, and in Guoluo (Golog) TAP, Qinghai province); ``Opinions on Mid- 
and Long-Term Reform of the Use of Bilingual Tibetan-Chinese Language 
in Qinghai Province'' [Guanyu qinghai sheng zang han shuangyu zhong 
changqi gaige wenti de yijian], Sohu blog, 24 October 10 (translated in 
Open Source Center, 7 November 10) (``demonstrations staged by the 
primary and secondary schools of the four autonomous prefectures of 
Huangnan, Hainan, Guoluo, and Haibei since 19 October'').
    \135\ ``NW China Province Clarifies Purpose of Bilingual Education 
Reform,'' Xinhua, 22 October 10.
    \136\ ``Qinghai Provincial Department of Education Leader Explains 
`Qinghai Province Mid- and Long-Term Plan for Educational Reform and 
Development (2010-2020)' '' [Qinghai sheng jiaoyu ting fuzeren jiedu 
``Qinghai sheng zhong changqi jiaoyu gaige he fazhan guihua gangyao 
(2010-2020)''], Qinghai News Agency, 22 October 10 (translated in Open 
Source Center, 6 November 10).
    \137\ PRC Regional Ethnic Autonomy Law [Zhonghua renmin gonghe guo 
minzu quyu zizhi fa], issued 31 May 84, effective 1 October 84, amended 
and effective 28 February 01.
    \138\ ``Opinions on Mid- and Long-Term Reform of the Use of 
Bilingual Tibetan-Chinese Language in Qinghai Province'' [Guanyu 
qinghai sheng zang han shuangyu zhong changqi gaige wenti de yijian], 
Sohu blog, 24 October 10 (translated in Open Source Center, 7 November 
10). The letter raised issues including: ``[Director Wang Yubo of the 
Qinghai Province Department of Education] bypassed the setting up of 
the Chinese language course and also altered the meaning of `the right 
to receive education in their own ethnic minority language' proposed in 
the Outline for National Education Plan''; ``The Qinghai Education 
Department and Wang Yubo openly restricted the freedom of study, use, 
and development of ethnic minority languages in schools, which totally 
violates the Constitution, the [REAL], the Education Law, and the Law 
for the State's Commonly Used Language''; ``[Furthermore, since the 
[REAL] is still in effect in the PRC, the change in use of language in 
the schools practicing regional autonomy made by an administrative 
department without authorization constitutes a deliberate challenge and 
infringement of the state's basic laws and a serious contempt for the 
authority of state laws''; and, ``Unless the National People's Congress 
[NPC] adopts any amendment to the [REAL], an administrative department, 
which is actually a provincial level administrative organ, has no right 
whatsoever to go beyond the principles of the basic law and make a 
decision in violation of the law.''
    \139\ Ibid. The letter states that the authors ``submitted'' it to 
national-, provincial-, and prefectural-level Communist Party, 
legislative, government, and consultative entities including the 
following: Communist Party United Front Work Department (UFWD), 
National People's Congress Religious Committee, State Ethnic Affairs 
Commission, Ministry of Education, Chinese People's Political 
Consultative Conference (CPPCC) Ethnic Affairs Committee, Qinghai 
Communist Party Standing Committee, Qinghai People's Congress, Qinghai 
People's Government, Qinghai CPPCC, Qinghai UFWD, Qinghai Religious 
Affairs Department, and Party committees, people's governments, 
people's congresses, CPPCCs, and education departments in each of 
Qinghai's six autonomous prefectures.
    \140\ Ibid. The letter stated, ``Under the current situation and 
conditions, a government functional department, without approval of a 
higher level state organ, has gone so far as to make a decision and 
reform in violation of the Constitution and law. We would like to 
appeal.''
    \141\ PRC Regional Ethnic Autonomy Law [Zhonghua renmin gonghe guo 
minzu quyu zizhi fa], issued 31 May 84, effective 1 October 84, amended 
and effective 28 February 01, art. 20: ``If a resolution, decision, 
order, or instruction of a state agency at a higher level does not suit 
the actual conditions in an ethnic autonomous area, an autonomous 
agency of the area may report for the approval of that higher level 
state agency to either implement it with certain alterations or cease 
implementing it altogether. That higher level state agency must give 
its decision within sixty days of receiving the report.'' For 
information on implementation of the PRC Regional Ethnic Autonomy Law, 
see, e.g., CECC, Special Topic Paper: Tibet 2008-2009, 22 October 09, 
25-28; CECC, 2007 Annual Report, Section IV--Tibet: Special Focus for 
2007, 10 October 07, 187-91; CECC, 2005 Annual Report, Section III--
Monitoring Compliance With Human Rights--Special Focus for 2005: 
China's Minorities and Government Implementation of the Regional Ethnic 
Autonomy Law, 11 October 05, 13-23.
    \142\ ``Leading Cadres Convene Forum To Study and Implement the 
Spirit of the Province-Wide Conference on Education'' [Lingdao ganbu 
xuexi guanche quansheng jiaoyu dahui jingshen zuotanhui zhaokai], 
Qinghai Daily, 27 October 10 (translated in Open Source Center, 8 
November 10). The article listed Qinghai province institutional 
participants: ``Education Department, Ethnic and Religious Affairs 
Commission, Civil Affairs Department, Agriculture and Animal Husbandry 
Department, Poverty Eradication Bureau, Cultural Federation, Academy of 
Social Sciences, Science Association, Red Cross, and Qinghai University 
for Nationalities.'' For information on a similar conference on October 
23, 2010, see ``The Party and the Government Will Never Force Any 
Student To Abandon Their Mother Tongue'' [Dang he zhengfu juebu hui 
qiangpo renhe xuesheng fangqi muyu], Qinghai News Agency, 25 October 10 
(translated in Open Source Center, 6 November 10).
    \143\ ``Leading Cadres Convene Forum To Study and Implement the 
Spirit of the Province-Wide Conference on Education'' [Lingdao ganbu 
xuexi guanche quansheng jiaoyu dahui jingshen zuotanhui zhaokai], 
Qinghai Daily, 27 October 10 (translated in Open Source Center, 8 
November 10). According to Gao, ``The realm of language learning is to 
be able to speak the common language of one's home location, to be able 
to speak the national language in public places, and to be able to 
speak an international language on international occasions.''
    \144\ Ibid.
    \145\ Xue Jun, ``Provincial Party Committee Convenes Telephone and 
Videoconference of Leading Cadres Province Wide, Qiang Wei Delivers 
Important Speech'' [Sheng wei zhaokai quansheng lingdao ganbu dianshi 
dianhua huiyi qiangwei zuo zhongyao jianghua], Qinghai Daily, 28 
October 10 (translated in Open Source Center, 1 November 10).
    \146\ Ibid.
    \147\ Ibid. The videoconference was convened by the Qinghai 
Communist Party Committee and included ``leading cadres throughout the 
province.''
    \148\ Dan Zengshe, ``Government Work Report--Delivered by Tibet 
Autonomous Regional Chairman Baima Chilin at the Fourth Session of the 
Ninth Autonomous Regional People's Congress on 10 January 2011'' [2011 
nian 1 yue 10 ri zai zizhiqu dijiu jie renmin daibiao dahui disi ci 
huiyi shang zizhiqu zhuxi baima chilin], Tibet Daily, 9 February 11 
(translated in Open Source Center, 25 February 11). The report 
emphasizes adherence to policy as the basis for success: ``In face of 
constant disruptions and sabotages by the Dalai clique, all kinds of 
frequent natural disasters, retrenchment of the macroeconomic 
environment, and other challenges, under the leadership of the party 
Central Committee and the State Council, the people of various ethnic 
groups across the autonomous region have united as strongly as a 
fortress, overcome difficulties, and accumulated valuable experience in 
expanding demand, promoting growth, creating welfare for the masses, 
and maintaining stability.''
    \149\ Hu Yongqi and Dachiog, ``Tibet's Achievements Celebrated,'' 
China Daily, 28 March 11. According to the report, the Tibet Autonomous 
Region increased an average of 12.4 percent per year from 2005 to 2010.
    \150\ Dan Zengshe, ``Government Work Report--Delivered by Tibet 
Autonomous Regional Chairman Baima Chilin at the Fourth Session of the 
Ninth Autonomous Regional People's Congress on 10 January 2011'' [2011 
nian 1 yue 10 ri zai zizhiqu dijiu jie renmin daibiao dahui disi ci 
huiyi shang zizhiqu zhuxi baima chilin], Tibet Daily, 9 February 11 
(translated in Open Source Center, 25 February 11). ``The farmers and 
herdsmen'[s] per capita net income has remained at a two-digit increase 
for eight consecutive years and topped 4,000 yuan in 2010, to stand at 
4,138.7 yuan, up by 99.2 percent over 2005. The city and town 
residents' per capita disposable income has reached 14,980 yuan, an 
increase of 78.1 percent over 2005.''
    \151\ Zhao Yinan, ``Minister Prepares To Solve Ethnic Challenges,'' 
China Daily, 18 November 10. ``From 2001 to 2010, the central 
government allocated more than 310 billion yuan (US$46.7 billion) to 
the Tibet autonomous region, . . . . Of every 100 yuan the Tibet 
regional government spends, 90 yuan comes from the central 
government.''
    \152\ PRC Constitution, adopted 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 9. ``Mineral resources, 
waters, forests, mountains, grassland, unreclaimed land, beaches and 
other natural resources are owned by the state, that is, by the whole 
people, with the exception of the forests, mountains, grassland, 
unreclaimed land and beaches that are owned by collectives in 
accordance with the law.''
    \153\ ``Tibet Autonomous Region Reserves Most Chromium and Cuprum 
in China,'' China Tibet Information Center, reprinted in China Tibet 
Online, 6 December 10.
    \154\ Ibid.; Zhao Yinan, ``Minister Prepares To Solve Ethnic 
Challenges,'' China Daily, 18 November 10 (``[from] 2001 to 2010, the 
central government allocated more than 310 billion yuan (US$46.7 
billion) to the Tibet autonomous region'').
    \155\ Reports did not provide information about the type of mining. 
``Tibetans in Tibet Beaten and Arrested by Authorities for Opposing 
Mine'' [Jingnei zangren yin fandui kaikuang zao zhonggong duda he 
jubu], Voice of Tibet, 11 February 11, reprinted in Boxun, 11 February 
11 (protests and petitioning began on November 22; beatings and 
detention on December 18); ``15 Tibetans Put Behind Bars Over Anti-
mining Protests in Shigatse,'' Phayul, 14 February 11.
    \156\ ``Tibetans in Tibet Beaten and Arrested by Authorities for 
Opposing Mine'' [Jingnei zangren yin fandui kaikuang zao zhonggong duda 
he jubu], Voice of Tibet, reprinted in Boxun, 11 February 11 (protests 
and petitioning began on November 22; beatings and detention on 
December 18); ``15 Tibetans Put Behind Bars Over Anti-mining Protests 
in Shigatse,'' Phayul, 14 February 11. See the Commission's Political 
Prisoner Database for more information on the cases.
    \157\ ``Villagers Block Work on Dam,'' Radio Free Asia, 30 
September 10 (the mountain's name is Lhachen Naglha Dzamba); ``Tibetan 
Dam Protesters Detained,'' Radio Free Asia, 7 October 10 (the mountain 
is ``a traditional site of worship and offerings'').
    \158\ ``Villagers Block Work on Dam,'' Radio Free Asia, 30 
September 10.
    \159\ Ibid. According to the report, workers claimed ``their permit 
to mine in the area had been approved by the Communist Party secretary 
of the TAR.'' The TAR government would issue such a permit, but a TAR 
Party official may have signified agreement.
    \160\ ``Tibetan Dam Protesters Detained,'' Radio Free Asia, 7 
October 10. See the Commission's Political Prisoner Database for more 
information on the cases.
    \161\ Kalsang Rinchen, ``Police Firing Kills 3, Injures 30 Tibetans 
in Palyul County,'' Phayul, 24 August 10 (``100 Tibetans from the 
village had camped outside the government headquarters waiting for a 
response from the authorities to their plea.''); ``Police Fire on Mine 
Protesters,'' Radio Free Asia, 26 August 10.
    \162\ ``Police Fire on Mine Protesters,'' Radio Free Asia, 26 
August 10 (``gold mining operations by the Chinese-owned Kartin Company 
had led to an overcrowded population, severely degraded the fertility 
of their farmland, and adversely affected the local grassland 
habitat'').
    \163\ Kalsang Rinchen, ``Police Firing Kills 3, Injures 30 Tibetans 
in Palyul County,'' Phayul, 24 August 10 (``[three] Tibetans have been 
killed and 30 others severely wounded''); Phurbu Thinley, ``China Says 
Only One Tibetan Shot Dead in Palyul Mine Protest,'' Phayul, 1 
September 10 (``Subsequent reports by overseas Tibetan news services 
said at least four Tibetans were killed, . . .'').
    \164\ ``Tibetan Accidentally Shot Dead in Dispute With Police,'' 
Xinhua, 30 August 10, reprinted in China Internet Information Center.
    \165\ ``Tibetan Mine Protesters Detained,'' Radio Free Asia, 5 
August 11.
    \166\ Ibid. The Radio Free Asia report named three persons (the 
``village officials'') detained on July 2, nine persons detained on 
July 6 and 7, one person detained on July 14, and two persons (the 
alleged protest ``ringleaders'') detained ``around July 20.''
    \167\ Ibid.
    \168\ Dan Zengshe, ``Government Work Report--Delivered by Tibet 
Autonomous Regional Chairman Baima Chilin at the Fourth Session of the 
Ninth Autonomous Regional People's Congress on 10 January 2011'' [2011 
nian 1 yue 10 ri zai zizhiqu dijiu jie renmin daibiao dahui disi ci 
huiyi shang zizhiqu zhuxi baima chilin], Tibet Daily, 9 February 11 
(translated in Open Source Center, 25 February 11). ``Around 1.43 
million farmers and herdsmen of 275,000 households whose housing 
conditions were comparatively bad have moved into safe and affordable 
homes.''
    \169\ Laba Cier and Gama Douji, ``Secretary Zhang Qingli of the 
Tibet Autonomous Regional CPC Committee Says That It Is Necessary To 
Adhere to the Scientific Development Concept and Maintain a Leapfrog 
Development'' [Xizang zizhiqu dangwei shuji zhang qingli: jianchi kexue 
fazhan guan baochi kuayueshi fazhan], Xinhua, 6 January 11 (translated 
in Open Source Center, 9 January 11).
    \170\ ``The CPC Central Committee and the State Council Hold the 
Fifth Tibet Work Forum; Hu Jintao and Wen Jiabao Deliver Important 
Speeches,'' Xinhua, 22 January 10 (translated in Open Source Center, 25 
January 10).
    \171\ ``Rural Pension System Extended to 2 Mln Tibetan Farmers, 
Herdsmen,'' Xinhua, 10 January 11. ``[The Tibet Autonomous Region] has 
a rural population of 2.21 million, of whom more than 235,000 are aged 
60 or over.'' (The January 2011 report likely refers to a 2010 
statistic.)
    \172\ Based on official Chinese media reports, the government has 
settled or resettled into new housing 1.43 million ``farmers and 
herdsmen'' among the Tibet Autonomous Region's 2.21 million rural 
population. Dan Zengshe, ``Government Work Report--Delivered by Tibet 
Autonomous Regional Chairman Baima Chilin at the Fourth Session of the 
Ninth Autonomous Regional People's Congress on 10 January 2011'' [2011 
nian 1 yue 10 ri zai zizhiqu dijiu jie renmin daibiao dahui disi ci 
huiyi shang zizhiqu zhuxi baima chilin], Tibet Daily, 9 February 11 
(translated in Open Source Center, 25 February 11) (``Around 1.43 
million farmers and herdsmen . . . moved into safe and affordable 
homes.''); ``Rural Pension System Extended to 2 Mln Tibetan Farmers, 
Herdsmen,'' Xinhua, 10 January 11 (``[The Tibet Autonomous Region] has 
a rural population of 2.21 million.''). For information on the 
compulsory nature of the program, see Human Rights Watch, `` `No One 
Has the Liberty To Refuse'--Tibetan Herders Forcibly Relocated in 
Gansu, Qinghai, Sichuan, and the Tibet Autonomous Region,'' 11 June 07.
    \173\ For more information on the network of railways the Chinese 
government plans to build on the Tibetan plateau, see CECC, Special 
Topic Paper: Tibet 2008-2009, 22 October 09, 46-53; CECC, 2009 Annual 
Report, 10 October 10, 285-86. For information on the completion of the 
Qinghai-Tibet railway in July 2006 and passenger traffic during the 
first year of operation, see CECC, 2006 Annual Report, 20 September 06, 
166-68; CECC, 2007 Annual Report, 10 October 07, 203-4.
    \174\ Dan Zengshe, ``Government Work Report--Delivered by Tibet 
Autonomous Regional Chairman Baima Chilin at the Fourth Session of the 
Ninth Autonomous Regional People's Congress on 10 January 2011'' [2011 
nian 1 yue 10 ri zai zizhiqu dijiu jie renmin daibiao dahui disi ci 
huiyi shang zizhiqu zhuxi baima chilin], Tibet Daily, 9 February 11 
(translated in Open Source Center, 25 February 11); ``Lhasa-Xigaze 
Railway To Be Completed by 2015,'' Xinhua, 16 February 11.
    \175\ ``Tibet's New Railway To Open in 2014,'' China Daily, 2 
September 11.
    \176\ ``Lhasa-Xigaze Railway To Be Completed by 2015,'' Xinhua, 16 
February 11.
    \177\ ``Tibet Starts Building 5th Civil Airport,'' Xinhua, 29 April 
09.
    \178\ Dan Zengshe, ``Government Work Report--Delivered by Tibet 
Autonomous Regional Chairman Baima Chilin at the Fourth Session of the 
Ninth Autonomous Regional People's Congress on 10 January 2011'' [2011 
nian 1 yue 10 ri zai zizhiqu dijiu jie renmin daibiao dahui disi ci 
huiyi shang zizhiqu zhuxi baima chilin], Tibet Daily, 9 February 11 
(translated in Open Source Center, 25 February 11); ``Lhasa-Xigaze 
Railway To Be Completed by 2015,'' Xinhua, 16 February 11.
    \179\ CECC Staff Analysis. The decision on whether to route the 
railway along the northern or southern bank of the river has economic 
and security implications. Most of the forestry and mineral resources, 
as well as most of the population, are on the north side of the river, 
but a section of the China-India border that China disputes is on the 
south side of the river.
    \180\ Dan Zengshe, ``Government Work Report--Delivered by Tibet 
Autonomous Regional Chairman Baima Chilin at the Fourth Session of the 
Ninth Autonomous Regional People's Congress on 10 January 2011'' [2011 
nian 1 yue 10 ri zai zizhiqu dijiu jie renmin daibiao dahui disi ci 
huiyi shang zizhiqu zhuxi baima chilin], Tibet Daily, 9 February 11 
(translated in Open Source Center, 25 February 11). For more 
information on the Sichuan-Tibet railway between Chengdu city and 
Lhasa, see CECC, Special Topic Paper: Tibet 2008-2009, 22 October 09, 
49-53.
    \181\ ``New Railway To Cut Short Trip Between Capital Cities of 
Tibet, Xinjiang,'' Xinhua, 6 March 11. (China Daily reported in August 
2008 that the line would be constructed. Xin Dingding, ``Qinghai-Tibet 
Railway To Get Six New Lines,'' China Daily, 17 August 08.)
    \182\ ``New Railway To Cut Short Trip Between Capital Cities of 
Tibet, Xinjiang,'' Xinhua, 6 March 11.
    \183\ Zhou Zhou and Ma Yong, ``During the 12th Five-Year Plan a 
Strategic Rail Network To Be Built Through Tibet, Xinjiang'' [Shier wu 
qijian jiang jiancheng guantong xizang xinjiang zhanlue tielu wang], 
Xinhua, 6 March 11, reprinted in People's Daily, 7 March 11. According 
to the report, Luo Yulin, Vice Chairman of the Qinghai government, 
``hopes that work will start on the Golmud to Chengdu line during the 
period of the 12th Five-Year Plan.''
    \184\ International Campaign for Tibet, ``Chinese Authorities 
Rename and Rebuild Quake-Struck Tibetan Area; Tibetans Excluded From 
Planning,'' 25 January 11; ``China To Rebuild Quake-Levelled County 
Into Tourist City,'' Xinhua, 18 January 11.
    \185\ Zhou Zhou and Ma Yong, ``During the 12th Five-Year Plan a 
Strategic Rail Network To Be Built Through Tibet, Xinjiang'' [Shier wu 
qijian jiang jiancheng guantong xizang xinjiang zhanlue tielu wang], 
Xinhua, 6 March 11, reprinted in People's Daily, 7 March 11.
    \186\ Department of Population, Social, Science and Technology 
Statistics, National Bureau of Statistics et al., Tabulation on 
Nationalities of 2000 Population Census of China (Beijing: Ethnic 
Publishing House, 2003), Table 10-4. According to the table: Of Yushu 
TAP's 262,661 total population, 255,167 were Tibetan; of the TAR's 
2,616,329 total population, 2,427,168 were Tibetan; of Guoluo TAP's 
137,940 total population, 126,395 were Tibetan.
    \187\ International Campaign for Tibet, ``Reconstruction of 
Earthquake-Hit Area Excludes Tibetan Participation, Ignores Local 
Concerns: One Year on From Earthquake,'' 15 April 11. According to the 
report, on April 1 to 3, 2011, several hundred Tibetan protesters in 
the damaged city displayed banners with messages such as, ``Fairly and 
legitimately resolve this issue,'' ``Our land belongs to us,'' ``Help 
for the Yushu disaster area should put ordinary people's benefits 
first,'' and ``Reasonably plan the land of our lives.''
    \188\ ``China To Rebuild Quake-Levelled County Into Tourist City,'' 
Xinhua, 18 January 11 (renamed and designated a ``city''); Zhou Zhou 
and Ma Yong, ``During the 12th Five-Year Plan a Strategic Rail Network 
To Be Built Through Tibet, Xinjiang'' [Shier wu qijian jiang jiancheng 
guantong xizang xinjang zhanlue tielu wang], Xinhua, 6 March 11, 
reprinted in People's Daily, 7 March 11 (railway ``will pass through 
Jiegu [Kyegudo] town in Yushu prefecture.'').
    \189\ ``China To Rebuild Quake-Levelled County Into Tourist City,'' 
Xinhua, 18 January 11.
    \190\ Emily T. Yeh, ``Green Governmentality and Pastoralism in 
Western China: `Converting Pastures to Grasslands,' '' Nomadic Peoples, 
Vol. 9, No. 1 (2005), 23. According to the paper: ``Officially the 
largest nature reserve in China (at 31.8 million ha), it was 
established in 2000 to protect the sources of the Yangtze, Yellow and 
Lancangjiang (Mekong) Rivers. As such, the reserve covers most of 
Golog, Yushu and Haixi prefectures, which constitute about 44 percent 
of the total land area of the province.''
    \191\ ``China To Rebuild Quake-Levelled County Into Tourist City,'' 
Xinhua, 18 January 11. Luo Huining, Chairman of the Qinghai People's 
Government, announced the change.
    \192\ Ibid. According to the Chairman of the Qinghai People's 
Government, ``We will strive to build [Kyegudo] into a commerce and 
logistics center and a tourist city featuring ethnic traditional 
Tibetan culture and ecological preservation.''
    \193\ ``China Plans 32 Billion Yuan on Qinghai Quake 
Reconstruction,'' Xinhua, 13 June 10. ``The money would mainly came 
[sic] from the central budget, supplemented by funds from the Qinghai 
government, donations and corporate funding, according to a circular 
published on the government's website.''
    \194\ Cao Deshung, ``Tibet Rail Construction Completed,'' China 
Daily, 15 October 05.
    \195\ Zhou Zhou and Ma Yong, ``During the 12th Five-Year Plan a 
Strategic Rail Network To Be Built Through Tibet, Xinjiang'' [Shier wu 
qijian jiang jiancheng guantong xizang xinjiang zhanlue tielu wang], 
Xinhua, 6 March 11, reprinted in People's Daily, 7 March 11.
    \196\ ``China To Rebuild Quake-Levelled County Into Tourist City,'' 
Xinhua, 18 January 11. ``The entire town of [Kyegudo], the seat of 
Yushu prefectural government, was flattened, leaving more than 100,000 
residents homeless.''
    \197\ ``Tibetans Protest Over Land,'' Radio Free Asia, 3 June 10. 
``Some properties claimed by the authorities suffered no damage in the 
April earthquake, . . . . [His] family . . . complained that the `local 
government selected the best sites for the construction of government 
offices, schools, and public parks.' ''
    \198\ International Campaign for Tibet, ``The Kyegu Earthquake: Six 
Months On,'' 18 October 10 (``main concern of Tibetans is over losing 
their land and being moved into the government-built permanent housing, 
which will be in apartment or townhouse-type complexes''); ``Tensions 
Rise in Quake Town,'' Radio Free Asia, 17 June 10 (``the government has 
allocated 80 square meters (860 square feet) of living space per 
household . . . the people to be displaced are also unhappy with the 
location . . . . It's definitely much farther away than the place we 
were in before the earthquake struck.'').
    \199\ ``Tibetans Protest Land Grab,'' Radio Free Asia, 5 April 11. 
According to an RFA source, Tibetan property owners had been ``assured 
of compensation, but so far they have not been compensated 
appropriately.''
    \200\ Ibid.
    \201\ For the purpose of calculating average sentences, the 
Commission's Political Prisoner Database provides 20 years as a nominal 
length of a life sentence. Official Chinese information about the 
actual average time served by prisoners sentenced to life imprisonment 
is not available.
    \202\ In addition to the 483 Tibetan political prisoners believed 
or presumed to be currently detained or imprisoned and who were 
detained on or after March 10, 2008, the Commission's Political 
Prisoner Database recorded as of September 1, 2011, an additional 651 
Tibetan political prisoners detained or imprisoned on or after March 
10, 2008, who are known or presumed to have been released, or who 
reportedly escaped or died.
    \203\ For the purpose of calculating average sentences, the 
Commission's Political Prisoner Database provides 20 years as a nominal 
length of a life sentence. Official Chinese information about the 
actual average time served by prisoners sentenced to life imprisonment 
is not available.
    \204\ Ibid.

                                 <all>

</pre></body></html>
